                                    Participating Agencies

Department of Defense Office of Inspector General          Special Inspector General for Iraq Reconstruction
4800 Mark Center Drive                                     2530 Crystal Drive
Room 15G27                                                 Arlington, VA 22202
Alexandria, Virginia 22350-1500
                                                           Department of State and
U.S. Army Audit Agency                                     Broadcasting Board of Governors
3101 Park Center Drive                                     Office of Inspector General
Alexandria, VA 22302-1596                                  Room 8100, SA-3
                                                           2201 C Street, NW
Naval Audit Service                                        Washington, DC 20520-0308
1006 Beatty Place, SE
Washington Navy Yard Bldg. 219                             U.S. Agency for International Development
Washington, DC 20374                                       Office of Inspector General
                                                           Room 8.09-090, RRB
U.S. Air Force Audit Agency                                1300 Pennsylvania Avenue NW
1120 Air Force Pentagon, Suite 4E204                       Washington, DC 20523
Washington, DC 20330-1126
                                                           U.S. Government Accountability Office
Special Inspector General for Afghanistan Reconstruction   441 G Street, NW
2530 Crystal Drive                                         Washington, DC 20548
Arlington, VA 22202




                                                                                                               Fiscal Year 2012 Comprehensive Oversight 

                                    Department of Defense Inspector General
                                                                                                                         Plan for Southwest Asia

                                           4800 Mark Center Drive
                                                Room 15G27
                                       Alexandria, Virginia 22350-1500

                                This report is available online at: www.dodig.mil
                                                                                                                                                October 31, 2011

If you need additional information about any of the oversight projects listed, please contact the   The Office of the Special Deputy Inspector General for Southwest Asia prepared this plan. If
respective agency:                                                                                  you have questions or wish to request a copy of the plan, send an e-mail to sdig-swa@dodig.mil
                                                                                                    or phone (703) 699-5383.
Department of Defense Office of Inspector General
(703) 604-8324
http://www.dodig.mil/                                                                                                          Department of Defense Inspector General
                                                                                                                  Office of the Special Deputy Inspector General for Southwest Asia
U.S. Army Audit Agency                                                                                                                  4800 Mark Center Drive
(703) 681-8178 or (571) 926-6653                                                                                                             Room 15G27
http://www.hqda.army.mil/aaaweb/default.htm                                                                                        Alexandria, Virginia 22350-1500

Naval Audit Service                                                                                 The plan is also available on our Web site at http://www.dodig.mil/.
(202) 433-5757
http://www.hq.navy.mil/NavalAudit/

U.S. Air Force Audit Agency
(210) 652-0467 or (240) 612-5138
http://www.afaa.af.mil/

Special Inspector General for Afghanistan Reconstruction
(703) 602-2500
http://www.sigar.mil

Special Inspector General for Iraq Reconstruction
(703) 428-1100
http://www.sigir.mil
                                                                                                      Additional Information
Department of State Office of Inspector General                                                       The Department of Defense Office of the Special Deputy Inspector General for SWA
(703) 284-2690                                                                                        prepared this report. If you have questions, contact sdig-swa@dodig.mil.
http://www.oig.state.gov/
                                                                                                      Suggestions for Oversight Efforts
U.S. Agency for International Development Office of Inspector General                                 To suggest or request oversight efforts for defense programs, contact the Office of the
(202) 712-1020                                                                                        Special Deputy Inspector General for SWA by phone (703) 604-9165 (DSN 664-9165),
http://www.usaid.gov/oig/                                                                             by fax (703) 604-8932, or by mail:

U.S. Government Accountability Office                                                                                        SDIG-SWA
(202) 512-8974                                                                                                               Department of Defense Inspector General
http://www.gao.gov                                                                                                           400 Army Navy Drive (Room 1000)
                                                                                                                             Arlington, VA 22202-4704

For additional copies of this report, please see the inside back cover for details
Foreword



                                FOREWORD

The participating Department of Defense and Federal oversight agencies, which comprise
the Southwest Asia Joint Planning Group, are pleased to present the Fiscal Year 2012
Comprehensive Oversight Plan for Southwest Asia (FY 2012 COPSWA).

The FY 2012 COPSWA incorporates the planned and ongoing oversight by the
Inspectors General of the Department of Defense, Department of State, and the
U.S. Agency for International Development; the Special Inspectors General for Iraq
Reconstruction and Afghanistan Reconstruction; the Army Audit Agency; the Naval
Audit Service; and the Air Force Audit Agency. Additionally, the FY 2012 update
includes the U.S. Government Accountability Office’s ongoing oversight efforts related
to Southwest Asia.

The COPSWA includes descriptions of oversight projects that directly impact efforts in
Southwest Asia and surrounding areas, as of October 1, 2011. The FY 2012 edition is
organized by each oversight agency and impacted country, including Afghanistan, Iraq,
Kuwait, Pakistan, Qatar, and other countries. The projects are listed in the estimated
project start date order by month-year for each country grouping. The projects may be
conducted exclusively in theater, require travel into theater, or be conducted outside the
theater, such as solely in the continental United States (CONUS).

REQUIRED OVERSIGHT. The COPSWA was first issued in June 2008 (and each year
since) in accordance with the requirements of Public Law 110-181, “The National
Defense Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste,
Fraud, and Abuse in Wartime Contracts and Contracting Processes in Iraq and
Afghanistan,” January 28, 2008. In 2009, we began to include additional oversight
requirements as directed by Public Law 110-417, “The National Defense Authorization
Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of Spare Parts, Purchases,
and Depot Overhaul and Maintenance of Equipment For Operations in Iraq and
Afghanistan,” October 14, 2008 (see Section 2). Additional information on Sections 842
and 852, respectively, can be found in Appendix B.

EXPANSION OF THE OVERSIGHT PLAN TO INCLUDE ADDITIONAL AREAS SUPPORTING
THE U.S. MISSION IN SOUTHWEST ASIA. We expanded this oversight plan beyond the
statutory mandate to show all of the audit, inspection, and evaluation work (oversight) for
Iraq and Afghanistan and the rest of the U.S. Central Command’s area of responsibility.
In addition to the audits of contracts, subcontracts, and task and delivery orders for
logistical support being conducted, this comprehensive plan addresses other oversight
areas, including asset accountability, transition of security responsibilities to Iraq and
Afghanistan, financial and logistics management, security, rule of law, and economical
and social development.




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          i
Foreword


Our agencies continue to work together through the Southwest Asia Joint Planning Group
to coordinate and provide effective oversight of the U.S.-led efforts in Southwest Asia.
We also continue to coordinate oversight plans through improved communications
among the members on a regular basis and on individual projects as they are proposed
throughout the year. We will issue an update to this plan in FY 2013.

On behalf of the contributing members:




                               Joseph T. McDermott

                          Special Deputy Inspector General

                                 for Southwest Asia

                               Department of Defense

                             Office of Inspector General

                                         and

                                     Chairperson 

                         Southwest Asia Joint Planning Group





FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                      ii
Table of Contents



Table of Contents


Foreword........................................................................................................ i

Acronyms ..................................................................................................... iv

Facts and Figures .................................................................................vi


SECTION 1. ONGOING AND PLANNED PROJECTS

    DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL ................ 1

    U.S. ARMY AUDIT AGENCY .................................................................... 17

    NAVAL AUDIT SERVICE .......................................................................... 23

    U.S. AIR FORCE AUDIT AGENCY ........................................................... 25

    SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN 

      RECONSTRUCTION .............................................................................. 29

    SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION .............. 39

    DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL .................. 43

    U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

       OFFICE OF INSPECTOR GENERAL .................................................... 49

    U.S. GOVERNMENT ACCOUNTABILITY OFFICE ..................................... 60


SECTION 2.

    SECTION 852 PROJECTS ................................................................................ 67


APPENDICES
     A. SCOPE AND METHODOLOGY ................................................................. 70


     B. LEGISLATIVE MANDATES ...................................................................... 71





FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                                                      iii
Acronyms



Acronyms


AAA                 Army Audit Agency
AFAA                Air Force Audit Agency
AFCEE               Air Force Center for Engineering and the Environment
AFCENT              U.S. Air Forces Central Command
ANA                 Afghanistan National Army
ANP                 Afghanistan National Police
ANSF                Afghan National Security Forces
AOR                 Area of Responsibility
ARCENT              U.S. Army Central Command
CENTCOM             U.S. Central Command
CERP                Commander’s Emergency Response Program
CONUS               Continental United States
COPSWA              Comprehensive Oversight Plan for Southwest Asia
DoD                 Department of Defense
DoD OIG             Department of Defense Office of Inspector General
DON                 Department of the Navy
DoS                 Department of State
DoS OIG             Department of State Office of Inspector General
FY                  Fiscal Year
GAO                 U.S. Government Accountability Office
GIRoA               Government Islamic Republic of Afghanistan
I-CERP              Iraq Commander’s Emergency Response Program
IJC                 International Joint Command
ISAF                International Security Assistance Forces
LOGCAP              Logistics Civil Augmentation Program
MoDA                Ministry of Defense Advisors
NATO                North Atlantic Treaty Organization
NAVAUDSVC           Naval Audit Service


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                           iv
Acronyms


NTM-A/CSTC-A        North Atlantic Treaty Organization Training Mission –
                      Afghanistan/Combined Security Transition Command – Afghanistan
OEF                 Operation Enduring Freedom
OIF                 Operation Iraqi Freedom
SDIG-SWA            Special Deputy Inspector General for Southwest Asia
SIGAR               Special Inspector General for Afghanistan Reconstruction
SIGIR               Special Inspector General for Iraq Reconstruction
SWA                 Southwest Asia
TBD                 To Be Determined
USAID OIG           U.S. Agency for International Development Office of Inspector General
USFOR-A             U.S. Forces - Afghanistan




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                            v
Facts and Figures



FY 2012 COPSWA Facts and Figures1


     TABLE 1. ONGOING AND PLANNED OVERSIGHT PROJECTS BY ORGANIZATION


       ORGANIZATION                                               ONGOING PLANNED
       DoD OIG                                                       31      36
       AAA                                                           22      12
       NAVAUDSVC                                                     6        6
       AFAA                                                          11       6
       SIGAR                                                         12      44
       SIGIR                                                         13       4
       DoS OIG                                                       10      17
       USAID OIG                                                     18      66
       GAO                                                           17       0
                 Total Projects = 331                               140      191




     TABLE 2. OVERSIGHT PROJECTS BY SELECT COUNTRIES IMPACTING DOD AND 

                             NON-DOD AGENCIES 2


       COUNTRY                                              DOD    NON-DOD   BOTH
       Afghanistan                                          139       85      14
       Iraq                                                  35       26       2
       Kuwait                                                27       0        0
       Pakistan                                              0        24       0
       Qatar                                                 18       0        0




1
    The counts in these tables are as of October 1, 2011.
2
    One project may impact two or more countries.

FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                    vi
Department of Defense Office of Inspector General


SECTION 1. Ongoing and Planned Projects
Department of Defense Office of Inspector General

 PROJECT                                                 COUNTRY      START    FINAL
 Deployment of the Standard Procurement System
 in the Joint Contracting Command
 Iraq/Afghanistan. Objective: Determine whether
 the deployment of the Standard Procurement System,
                                                        AFGHANISTAN
 to include the Standard Procurement System                           Feb-09   Oct-11
 Contingency in the Joint Contracting Command              IRAQ
 Iraq/Afghanistan, was properly planned and
 executed. This is the second in the series.
 (Project: D2009-D000FB-0112.000)
 Construction of the Detention Facility in Parwan,
 Afghanistan. Objective: Determine whether the
 U.S. Army Corps of Engineers and U.S. Forces ­
 Afghanistan procured construction services and
 administered the construction contract for the
 Detention Facility in Parwan, Afghanistan in
 accordance with the Federal Acquisition Regulation
 and other applicable laws and regulations.
 Specifically, we will determine whether the
                                                        AFGHANISTAN   Jun-10   Jan-12
 U.S. Army Corps of Engineers properly monitored
 contractor performance during construction of the
 Detention Facility in Parwan, and whether the
 U.S. Army Corps of Engineers has taken or should
 take recourse against the contractor because of
 potential latent defects, negligence, or fraud.
 (Project: D2010-D000JO-0229.000)
 Implementation of Security Provisions of a U.S.
 Army Intelligence and Security Command
 Contract for Linguist Support.
 Objective: Determine whether the security provisions
 of a U.S. Army Intelligence and Security Command
 contract for linguist support in Afghanistan           AFGHANISTAN   Jun-10   Mar-12
 (W911W4-07-D-0010) were implemented
 effectively. DoD OIG is conducting a series of
 reviews regarding linguist support in Afghanistan.
 Two reports were previously issued.
 (Project: D2010-D000JA-0165.001)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        1
Department of Defense Office of Inspector General



 PROJECT                                                     COUNTRY      START    FINAL
 DoD Counter Narcoterrorism Technology
 Program Office’s Other Direct Costs. This audit is
 one in a series of audits relating to the contracts
 supporting the DoD Counter Narcoterrorism
 Technology Program Office. Objective: Determine            AFGHANISTAN   Sep-10   Oct-11
 whether other direct costs are fair and reasonable in
 the task orders issued by the DoD Counter
 Narcoterrorism Technology Program Office.
 (Project: D2011-D000AS-0004.000)
 DoD Counter Narcoterrorism Technology
 Program Office’s Mi-17 Overhaul Contracts.
 This is the second in a series of audits on the Counter
 Narcoterrorism Technology Program Office IDIQ
 contracts; the first was
 Project D2011-D000AS-0004.000. Objective:
 Determine whether the oversight and management of          AFGHANISTAN   Sep-10   Oct-11
 CNTPO contracts for overhaul of Mi-17 helicopters
 were completed in accordance with FAR
 requirements; and to determine whether the
 contracting officer ensured that DoD obtained fair
 and reasonable prices for overhaul services.
 (Project: D2011-D000AS-0241.000)
 Controls Over the Reporting and Propriety of
 Commander’s Emergency Response Program
 Payments in Afghanistan. Objective: Determine
 whether the internal controls over the Commander’s
 Emergency Response Program payments made to
 support operations in Afghanistan are adequate.
 Specifically, we will review the controls to ensure
 payments are proper and that complete, accurate, and
 meaningful data is reported to those decisionmakers
                                                            AFGHANISTAN   Sep-10   Oct-11
 responsible for managing the Commander’s
 Emergency Response Program. This audit is the
 second in a series of audits that addresses the internal
 controls over the Commander’s Emergency
 Response Program payments made to support
 operations in Afghanistan.
 (Project: D2010-D000FL-0276.000)
 Management and Oversight for DoD Acquisition
 and Support of Non-Standard Rotary Wing
 Aircraft. Objective: Determine whether DoD
 officials properly and effectively managed the
 acquisition and support of Non-Standard Rotary
                                                            AFGHANISTAN   Oct-10   Dec-11
 Wing Aircraft, such as the Russian Mi-17 aircraft, to
 include those acquired using the Afghanistan
 Security Forces Fund or any DoD-related
 requirements.
 (Project: D2011-D000AS-0030.000)

FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                            2
Department of Defense Office of Inspector General



 PROJECT                                                     COUNTRY      START    FINAL
 Follow-up of Health Care Provided by Military
 Treatment Facilities to Contractors in Southwest
 Asia. This follow-up audit is being performed at the
 request of the former Commander, U.S. Central
 Command. Objective: Determine whether DoD is
 taking adequate action in billing contractors for
 health care provided at military treatment facilities in   AFGHANISTAN   Nov-10   Jan-12
 Southwest Asia as identified in Department of
 Defense Office of Inspector General
 Report No. D-2009-078, “Health Care Provided by
 Military Treatment Facilities to Contractors in
 Southwest Asia.”
 (Project: D2011-D000LF-0041.000)
 Internal Controls Over Distribution and
 Reconciliation of Funds for the Afghanistan
 National Army Payroll. Objective: Determine if
 adequate controls are in place to ensure that the
 North Atlantic Treaty Organization Training Mission
 - Afghanistan/Combined Security Transition
 Command - Afghanistan (NTM-A/CSTC-A) is
 distributing DoD funds accurately and timely to the        AFGHANISTAN   Nov-10   Dec-11
 Afghanistan Ministries for the Afghanistan National
 Army payroll. In addition, we will determine
 whether NTM-A/CSTC-A has implemented an
 adequate mentoring process to assist Afghanistan
 Ministries in providing accurate payments to its
 National Army personnel.
 (Project: D2011-D000FR-0089.000)
 Requirements Development Process for Military
 Construction Projects in Afghanistan.
 Objective: Evaluate the requirements development
 process for military construction projects in
 Afghanistan. Specifically, we will determine
 whether the requirements development process
                                                            AFGHANISTAN   Nov-10   Jan-12
 results in statements of work that clearly define
 required results, have measurable outcomes, and
 meet DoD needs.
 (Project: D2011-D000JB-0068.000)
 Review of the Stability Operations Information
 Centers in Afghanistan. Objective: Determine
 whether the Stability Operations Information Centers
 (SOIC) have improved the intelligence provided to          AFGHANISTAN   Dec-10   Jan-12
 senior U.S. leaders and commanders on the political,
 economic, and cultural environment of Afghanistan.
 (Project: D2011-DINT01-0123.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                            3
Department of Defense Office of Inspector General



 PROJECT                                                    COUNTRY      START    FINAL
 Facilities Management Training Provided Under
 the National Operations and Maintenance
 Contracts in Afghanistan.
 Objective: Determine whether the vocational training
 provided under the National Operations and                AFGHANISTAN   Jan-11   Jan-12
 Maintenance contracts is effective in developing the
 infrastructure maintenance capabilities of the
 Afghanistan National Security Forces.
 (Project: D2011-D000JO-0137.000)
 U.S. and Coalition Efforts to Develop the Logistics
 Sustainment Capability of the Afghan National
 Army. Objectives: Determine whether plans,
 training, preparations, and designated missions of
 ISAF/USFOR-A, NTM-A/CSTC-A, and IJC to train,
 advise, and assist in the development of an enduring
 logistics sustainability capability for the Afghan
 National Army (ANA) are synchronized with in-
 country plans and operational assumptions and
 needs. In addition, DoD OIG will determine whether
                                                           AFGHANISTAN   Feb-11   Oct-11
 the planning and operational implementation by
 U.S./Coalition forces to train, advise, and assist in
 the development of an enduring logistics
 sustainability capability for the ANA are effective by
 evaluating output/outcome in Ministry of Defense
 (MoD)/ANA logistics processes, logistical and
 operational organizations.
 (Project: D2011-D00SPO-0172.000)
 Supply Support Activities’ Effectiveness in
 Sustaining U.S. Forces in Afghanistan.
 Objective: Determine whether selected Supply
 Support Activities in Afghanistan were effectively
 and efficiently supporting their customers.
 Specifically, we will evaluate whether the provided       AFGHANISTAN   Feb-11   Jan-12
 supply support was adequate in supporting unit
 readiness, and whether procedures for establishing
 authorized stockage lists were sufficient to ensure the
 most efficient use of funds.
 (Project: D2011-D000JO-0169.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                           4
Department of Defense Office of Inspector General



 PROJECT                                                   COUNTRY      START    FINAL
 DoD Countermine and Improvised Explosive
 Device Defeat Systems Contracts - Vehicle Optics
 Sensor System. Objective: Determine whether the
 Joint Improvised Explosive Device Defeat
 Organization (JIEDDO) and Army procurement
 efforts for the Vehicle Optics Sensor System, used on
 RG-31 and Joint Explosive Ordnance Disposal Rapid
 Response Vehicles in Iraq and Afghanistan, were
 developed, contracted, and managed in accordance         AFGHANISTAN
 with Federal and Defense acquisition regulations.
                                                                        Mar-11   Nov-11
                                                             IRAQ
 This audit is one in a series of audits the DoD OIG is
 performing to determine whether DoD procurement
 efforts for countermine and improvised explosive
 device defeat systems used in Iraq and Afghanistan
 were developed, awarded, and managed in
 accordance with Federal and Defense acquisition
 regulations.
 (Project: D2011-D000AB-0156.000)
 Fees and Surcharges on Intragovernmental
 Orders Funded by Afghanistan Security Forces
 Fund Appropriations. Objective: Determine what
 fees and surcharges DoD Components charge on
 intragovernmental orders funded by Afghanistan           AFGHANISTAN   Mar-11   Mar-12
 Security Forces Fund appropriations. We will also
 evaluate whether the cost data exist to support those
 charges.
 (Project: D2011-D000FD-0121.000)
 Development of Individual Equipment
 Requirements for the Afghan National Army.
 Objective: Determine whether the development
 process for Afghan National Army individual
 equipment requirements was adequate. Specifically,
                                                          AFGHANISTAN   Apr-11   Jun-12
 we will determine the adequacy of the acquisition,
 sustainment, and training requirements established
 for individual equipment items for the Afghan
 National Army.
 (Project: D2011-D000AT-0222.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          5
Department of Defense Office of Inspector General



 PROJECT                                                     COUNTRY      START    FINAL
 Controls Over the Interagency Transfer of
 Commander’s Emergency Response Program
 Funds to U.S. Agency for International
 Development. Objective: Determine whether U.S.
 Forces-Afghanistan controls over the interagency
 transfer of Commander’s Emergency Response
 Program Funds to the U.S. Agency for International
 Development were adequate to ensure compliance             AFGHANISTAN   May-11   Jan-12
 with Economy Act Order requirements and the
 timely and cost-effective delivery of goods and
 services ordered. This audit is the third in a series of
 audits addressing the internal controls over the
 Commander’s Emergency Response Program
 payments made to support Afghanistan operations.
 (Project: D2011 D000FL-0218.000)
 U.S. and Coalition Efforts to Develop the Afghan
 National Army Air Force. Objective: Evaluate
 efforts to build, train, equip and sustain the Afghan      AFGHANISTAN   May-11   Feb-12
 National Army Air Force.
 (Project: D2011-D00SPO-0234.000)
 Accountability for Night Vision Devices Procured
 for the Afghan National Security Forces.
 Objective: Evaluate accountability for night vision
 devices and associated spare parts procured for the
                                                            AFGHANISTAN   May-11   Mar-12
 Afghan National Security Forces.
 (Project: D2011-D000AT-0221.000)
 Management of Pharmaceuticals Within the
 Afghan National Security Forces Health System.
 Objective: Determine the effectiveness of
 pharmaceutical distribution within the Afghanistan
 National Security Forces health care system.
                                                            AFGHANISTAN   Jun-11   Mar-12
 Specifically, we will evaluate the procurement,
 delivery, and inventory control processes for
 pharmaceuticals at Afghanistan National Security
 Forces medical facilities and depots.
 (Project: D2011-D000JA-0240.000)
 Audit of Adequacy of Controls Over Small Arms
 Contracts for the Afghan National Security
 Forces. Objective: Evaluate the contract award,
 pricing, and quality assurance provisions for small
 arms, including accessories and spare parts, acquired
                                                            AFGHANISTAN   Jul-11   Jun-12
 using Afghanistan Security Forces Funds.
 Specifically, we will determine whether the contract
 processes were in accordance with applicable
 acquisition regulations.
 (Project: D2011-D000AT-0246.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                            6
Department of Defense Office of Inspector General



 PROJECT                                                   COUNTRY      START    FINAL
 Training, Equipping, and Mentoring of the
 Afghan Local Police. Objective: Evaluate the
 effectiveness of efforts to train, equip, and mentor     AFGHANISTAN   Aug-11   Apr-12
 the Afghan Local Police.
 (Project: D2011-D00SPO-0277.000)
 Afghan National Police Mentoring/Training and
 Logistics Support Contract. The audit will be the
 first in a series of audits on the Afghan National
 Police Mentoring/Training and Logistics Support
 contract. Objective: The overall objective for the
 series of audits is to determine whether DoD officials
 are using appropriate contracting processes to satisfy
 mission requirements and are conducting appropriate      AFGHANISTAN   Aug-11   Apr-12
 oversight of the contract in accordance with Federal
 and DoD policies. For this audit, the DoD OIG will
 determine whether the Army is appropriately
 administering the Afghan National Police
 Mentoring/Training and Logistics Support contract in
 accordance with Federal and DoD guidance.
 (Project: D2011-D000AS-0271.000)
 Contracts Supporting Afghanistan Rotary Wing
 Airlift Program for the U.S. Transportation
 Command. Objective: Determine whether U.S.
 Transportation Command officials properly
 administered contracts supporting the Afghanistan
 Rotary Wing Airlift Program in accordance with
 Federal and DoD regulations and policies. We will        AFGHANISTAN   Oct-11   Sep-12
 review the Government contract oversight and
 whether the contracting officer or their
 representatives approved the cost reimbursable
 contract line items to ensure that the costs were
 appropriate.
 (Project: TBD)
 Internal Controls Over the U.S. Army Contract
 Payments in Afghanistan.
 Objective: Determine whether internal controls over
 the U.S. Army’s procurement and disbursement
 processing of contract payments supporting
                                                          AFGHANISTAN   Oct-11   Dec-12
 operations in Afghanistan are adequate and to ensure
 that payments are proper.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          7
Department of Defense Office of Inspector General



 PROJECT                                                   COUNTRY      START    FINAL
 Contract Administration and Oversight of
 Military Construction Projects in Afghanistan.
 Objective: Determine whether DoD is providing
 effective oversight of military construction projects.
 Specifically, to determine whether DoD is adequately     AFGHANISTAN   Dec-11   Dec-12
 performing quality assurance oversight
 responsibilities and properly monitoring contractor
 performance during construction.
 (Project: TBD)
 U.S. Army Corps of Engineer’s Construction
 Terminated Contracts for Afghanistan National
 Army and Afghanistan National Police Facilities.
 Objective: Determine whether U.S. Army Corps of
 Engineers is providing effective oversight of the
 completion of Afghan National Army and Afghan
 National Police construction projects in support of
 the Afghan National Security Forces. Specifically,
                                                          AFGHANISTAN   Dec-11   Dec-12
 we will determine whether U.S. Army Corps of
 Engineers is terminating these contracts early, paying
 the original contractor the remainder of the contract
 price, and then issuing a new contract to complete
 that construction project.
 (Project: TBD)
 Overhaul and Cockpit Modifications of Mi-17s.
 Objective: This is a follow-on audit to DoD
 Project No. D2011-D000AS-0241.000, “Audit of the
 DoD Counter Narcoterrorism Technology Program
 Office’s Other Direct Cost.” Our overall audit
 objective will be to determine whether DoD officials     AFGHANISTAN   Dec-11   Dec-12
 properly awarded and administered contract
 W58RGZ-09-D-0130 for the overhaul and
 modification of Mi-17s in accordance with Federal
 and DoD regulations and policies.
 (Project: TBD)
 Controls Over the Accountability of Contractor
 Managed Government Owned Property in
 Afghanistan. Objective: Determine whether
 CENTCOM-Joint Theater Support Contracting
 Command has adequate controls over contractor-
 managed, Government-owned property in
 Afghanistan. Specifically, we will determine             AFGHANISTAN   Dec-11   Dec-12
 whether policies, processes, and procedures exist for
 the proper accountability of contractor-managed,
 Government-owned and whether CENTCOM-Joint
 Theater Support Contracting Command adequately
 executes those policies, processes, and procedures.
 (Project: TBD)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          8
Department of Defense Office of Inspector General



 PROJECT                                                     COUNTRY      START    FINAL
 Procedures for Recovery of Organizational
 Clothing and Individual Equipment.
 Objective: Determine whether the Office of the
 Under Secretary of Defense for Acquisition,                AFGHANISTAN
 Technology, and Logistics established a working               IRAQ       Dec-11   Dec-12
 group, and developed and implemented procedures              KUWAIT
 for improving procedures for recovery of
 organizational clothing and individual equipment.
 (Project: TBD)
 Assessment of Intelligence, Surveillance, and
 Reconnaissance in Afghanistan.
 Objective: How effective and suitable is our current       AFGHANISTAN   Jan-12   Jan-13
 airborne ISR capability in Afghanistan.
 (Project: INTEL - TBD)
 Countrywide Crosscutting Compliance of
 Electrical Installations - Afghanistan.
 Objective: National Electrical Code (NEC)
 assessment to address life, health, and safety issues
 compliance with standards, codes, regulations and
 requirements referenced in the statement of work to
 include: electrical distribution system, underground,
 insulated wire and cable, installation of                  AFGHANISTAN   Jan-12   May-12
 uninterruptable power supply system, interior
 distribution system – wiring and cabling, electrical
 panel switchboards and switchgear, interior lighting,
 exterior lighting, basic electrical materials and
 installation, diesel generator set stationary, and other
 issues.
 (Project: P&O - TBD)
 Development of the Operational Communications
 Capability of the Afghan National Security
 Forces. Objective: Assess the effectiveness of U.S.
 and Coalition efforts to develop the operational           AFGHANISTAN   Jan-12   Sep-12
 communications capability of the Afghan National
 Security Forces.
 (Project: SPO - TBD)
 Evaluation of Defense Criminal Investigative
 Collaboration With the Sexual Assault Prevention
 and Response Program in Afghanistan.
 Objective: Determine whether criminal investigative
 organizations provide an immediate, trained response
                                                            AFGHANISTAN   Mar-12   Nov-12
 capability for each report of sexual assault, and
 effectively collaborate with the Sexual Assault
 Prevention and Response Program in Afghanistan in
 accordance with DoD guidance.
 (Project: P&O - TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                            9
Department of Defense Office of Inspector General



 PROJECT                                                  COUNTRY      START    FINAL
 Leader Development Within the Afghan National
 Security Forces. Objective: Assess the effectiveness
 of U.S. and Coalition efforts to develop leaders        AFGHANISTAN   Mar-12   Dec-12
 within the Afghan National Security Forces.
 (Project: SPO - TBD)
 Building Institutional Municipal Capacity
 Through the Ministry of Defense Advisors
 (MoDA). Objective: Determine the effectiveness of
 MoDA in DoD efforts to help build the security
                                                         AFGHANISTAN   Mar-12   Mar-13
 capacity of partner states, particularly Afghanistan.
 (Project: TBD)
 Effectiveness of the Supply Support Program
 Used to Sustain Route Clearance Equipment.
 Objective: Evaluate materiel purchases made by the
 contractor supporting the Route Clearance
 Equipment. Specifically, whether the spare/repair
 parts were purchased in the most cost effective
                                                         AFGHANISTAN   Mar-12   Mar-13
 manner, whether the demand data was captured by
 the respective Supply Centers, and did the
 spare/repair parts meet DoD standards.
 (Project: TBD)
 Improvements Needed in Contract
 Administration of the Subsistence Prime Vendor
 Contract for Afghanistan. Objective: Evaluate the
 contract administration of the Prime Vendor Program
 for subsistence in support of Operation Enduring
 Freedom. Specifically, we will review whether the       AFGHANISTAN   Mar-12   Mar-13
 assignment of Contracting Officer Representatives
 and execution of the quality assurance surveillance
 plans and procedures were effective for assessing
 contractor performance.
 (Project: TBD)
 Availability of Afghanistan Security Forces Funds
 on Pseudo Foreign Military Sales Cases for the
 Afghan National Security Forces.
 Objective: Determine whether the Department of the
 Army has established adequate controls over
 available funds on Afghan Security Forces Funds
                                                         AFGHANISTAN   Mar-12   Mar-13
 pseudo Foreign Military Sales cases. Specifically,
 determine whether available funds are being properly
 accounted for and represent valid needs.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                         10
Department of Defense Office of Inspector General



 PROJECT                                                     COUNTRY      START    FINAL
 Ammunition Contracts for the Afghan National
 Security Forces. Objective: Determine whether
 DoD officials properly awarded and administered
 contracts for the acquisition of Afghan National
 Security Forces non-standard ammunition in
 accordance with Federal and DoD regulations and            AFGHANISTAN   Mar-12   Mar-13
 policies. Specifically, review contract requirements,
 Government oversight of contractor and
 subcontractor performance, and obligation and
 management of Afghan Security Forces Funds.
 (Project: TBD)
 C-27 Aircraft for the Afghan National Army Air
 Force. Objective: Determine whether DoD officials
 properly awarded and administered contracts for the
 C-27 aircraft for the Afghan National Army Air
 Force in accordance with Federal and DoD
 regulations and policies. Specifically, review the fair    AFGHANISTAN   Mar-12   Mar-13
 and reasonable price determination, Government
 oversight of contractor and subcontractor
 performance, and obligation and management of
 Afghan Security Forces Funds.
 (Project: TBD)
 Radio Contracts for the Afghan National Security
 Forces. Objective: Determine whether DoD officials
 properly awarded and administered the contract for
 Afghan National Security Forces radios in
 accordance with Federal and DoD regulations and
 policies. Specifically, we will review the fair and        AFGHANISTAN   Mar-12   Mar-13
 reasonable price determination, Government
 oversight of contractor and subcontractor
 performance, and obligation and management of
 Afghan Security Forces Funds.
 (Project: TBD)
 Improving Construction Contracting in a
 Contingency Environment. Objective: Provide
 DoD field commanders, contracting officers, and
 program managers with information on systemic
 construction contracting issues identified by the          AFGHANISTAN
 Government Accountability Office, DoD Office of
                                                               IRAQ       Mar-12   Mar-13
 Inspector General, and DoD community from
 October 1, 2007, through September 30, 2011.                 KUWAIT
 Specifically, to identify actions to be taken to prevent
 and correct systemic issues and improve construction
 contracting in a contingency environment.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                            11
Department of Defense Office of Inspector General



 PROJECT                                                   COUNTRY      START    FINAL
 Support Truck Contracts for the Afghan National
 Security Forces. Objective: Determine whether
 DoD officials awarded and administered contracts
 for ANSF support trucks in accordance with
 appropriate Federal and DoD regulations and
 policies. Specifically, we will review the               AFGHANISTAN   Apr-12   Mar-13
 determination for fair and reasonableness price,
 Government oversight of the contract to include
 quality and product delivery dates, and use of
 appropriate funds.
 (Project: TBD)
 Countrywide Crosscutting Compliance of Fire
 Suppression Systems - Afghanistan.
 Objective: Fire protection systems assessment to
 address life and safety of occupants from fire or
 similar emergencies; fire pumps, automatic sprinkler
 systems, local fire alarm, smoke detection, wet          AFGHANISTAN   May-12   Oct-12
 chemical fire extinguishing system, water
 distribution system, seismic protection for
 mechanical equipment, lightning protection system,
 and other issues.
 (Project: P&O - TBD)
 Development of a Sustainable Health Care System
 Within the Afghan National Security Forces.
 Objective: Assess the effectiveness of U.S. and
 Coalition efforts to develop a sustainable Health Care
                                                          AFGHANISTAN   Jun-12   Feb-13
 System within the Afghan National Security Forces.
 (Project: SPO - TBD)
 Controls Over the U.S. Marine Corps Contract
 Payments in Afghanistan. Objective: Determine
 whether controls over the U.S. Marine Corps’
 procurement and disbursement processing of
 FYs 2010 and 2011 contract payments supporting
                                                          AFGHANISTAN   Jun-12   Jun-13
 operations in Afghanistan are adequate to ensure the
 propriety of payments.
 (Project: TBD)
 DoD Joint National Maintenance Facility.
 Objective: Determine whether DoD joint national
 maintenance facility is effectively executing            AFGHANISTAN   Jun-12   Jun-13
 maintenance on vehicles.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          12
Department of Defense Office of Inspector General



 PROJECT                                                    COUNTRY      START    FINAL
 Shindand Training Contracts.
 Objective: Determine whether DoD officials properly
 awarded and administered training contracts at
 Shindand Air Base in accordance with Federal and
 DoD regulations and policies. Specifically, review
                                                           AFGHANISTAN   Jun-12   Jun-13
 contract oversight including accountability of
 Government furnished property.
 (Project: TBD)
 Building Institutional Municipal Capacity
 Through the Defense Institution Reform Initiative
 (DIRI). Objective: Determine the effectiveness of
 DIRI in DoD efforts to help build the security
                                                           AFGHANISTAN   Jun-12   Jun-13
 capacity of partner states.
 (Project: TBD)
 MQ-1 Predator and MQ-9 Reaper Unmanned
 Aircraft Systems Contracts.
 Objective: Determine whether DoD officials properly
 awarded and administered contracts for the MQ-1
 Predator and MQ-9 Reaper unmanned aircraft
 systems maintenance support in accordance with            AFGHANISTAN
 Federal and DoD regulations and policies.
                                                                         Jun-12   Jun-13
                                                              IRAQ
 Specifically, we will review whether other
 contractors are available to increase competition for
 future contract awards, plans for future follow-on
 contracts, and Government contract oversight.
 (Project: TBD)
 Management of Operational Rations.
 Objective: Evaluate the management of operational
 rations by the Defense Logistics Agency Troop
 Support. Specifically, objectives would include
 evaluating what Defense Logistics Agency Troop
 Support is doing to monitor the accountability of         AFGHANISTAN
 operational rations (Government-furnished material)
                                                              IRAQ       Jun-12   Jun-13
 stored by subsistence prime vendors and assessing
 requirement computations. The audit would also look         KUWAIT
 to see whether Defense Logistics Agency Troop
 Support has explored other options to store reserves
 of operational rations, other than with the subsistence
 prime vendors.
 (Project: TBD)
 DoD Establishment of the Office of Security
 Cooperation - Afghanistan.
 Objective: Determine whether U.S. Government
 goals, objectives, plans, and guidance are issued and     AFGHANISTAN   Sep-12   Jun-13
 operative for establishment of an Office of Security
 Cooperation - Afghanistan.
 (Project: SPO - TBD)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                           13
Department of Defense Office of Inspector General



 PROJECT                                                    COUNTRY      START    FINAL
 Maintenance and Sustainability of Night Vision
 Devices Procured for the Afghan National
 Security Forces. Objective: Evaluate the Afghan
 National Security Force’s (ANSF) ability to maintain
 and sustain Night Vision Devices (NVDs) procured
 by the United States. Specifically, we will determine
 whether Combined Security Transition Command-
 Afghanistan (CSTC-A) has considered future U.S.
                                                           AFGHANISTAN   Sep-12   Sep-13
 financial assistance and the Government of
 Afghanistan’s capability to generate enough revenue
 to support the sustainment costs for NVDs provided
 to the ANSF. In addition, we will determine whether
 CSTC-A has developed a plan to provide the ANSF
 with the knowledge and skills to perform adequate
 maintenance on NVDs.
 (Project: TBD)
 Afghan Technical Equipment Maintenance
 Program. Objective: In a series of audits, we will
 determine whether DoD properly awarded and
 administered contracts supporting the ATEMP.
 Specifically, we will review contract requirements,       AFGHANISTAN   Sep-12   Dec-13
 Government oversight of contractor and
 subcontractor performance, and obligation and
 management of Afghan Security Forces Funds.
 (Project: TBD)
 U.S. Air Forces Central (AFCENT) Aerial Ports
 Policies, Procedures and Operations in Southwest
 Asia. Objective: Determine whether Air Forces
 Central (AFCENT) has effectively and efficiently
 managed aerial port operations for military, civilians,   AFGHANISTAN
 and contractors. Specifically, review AFCENT
                                                               IRAQ       TBD
 policies, procedures, and operations within SWA to
 determine if AFCENT effectively and efficiently              OTHER
 utilized airlift capacity and passenger movement to
 ensure mission readiness for the warfighter and
 minimize costs to the taxpayer.
 (Project: TBD)
 Army’s Controls Over Foreign Currency
 Exchange Gains and Losses.
 Objective: Determine whether Army has adequate
 controls over foreign currency exchange gains or
 losses resulting from Army commercial payments.
 Specifically, we will review whether Army’s
                                                             CONUS       Mar-12   Mar-13
 contracting and payment controls ensured that
 foreign currency exchange gains and losses were
 proper, recorded accurately, and not misappropriated.
 (Project: TBD)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                           14
Department of Defense Office of Inspector General



 PROJECT                                                   COUNTRY       START    FINAL
 Overaged DoD Contracts Awaiting Closeout.
 Objectives: Determine whether DoD was taking
 effective action to reduce the number of overaged
 DoD contracts awaiting closeout and collecting
 overpayments to contractors during closeout.                CONUS       Mar-12   Mar-13
 Specifically, we plan to evaluate whether contract
 personnel performed contract closeout procedures in
 accordance with applicable laws and regulations.
 (Project: TBD)
 Controls Over Cash and Other Monetary Assets
 at Overseas Army Finance Command Disbursing
 Operations. Objective: Determine whether internal
 controls for Army General Fund, Cash, and Other
 Monetary Assets (COMA) held at selected Army
 disbursing sites located outside the continental
 United States (OCONUS) were effectively designed
                                                             EGYPT
 and operating adequately to safeguard, account,                         Aug-11   Sep-12
 document, and report COMA. In addition, we will          SAUDI ARABIA
 evaluate whether the Army Finance Command
 effectively implemented technical oversight and
 provided assistance to Army disbursing sites that
 previously did not have oversight by an Army
 Financial Management Center.
 (Project: D2011-D000FP-0260.000)
 Contracting for Force Protection for U.S.
 Installations in Iraq. Objective: Determine whether
 DoD is adequately administering and overseeing
 private security contracts in Iraq in response to the
 drawdown of U.S. forces. Specifically, we plan to           IRAQ        Dec-10   Dec-11
 evaluate support requirements in contracts and
 related security control measures and procedures for
 access to U.S. military installations in Iraq.
 (Project: D2011-D000JB-0098.000)
 Assessment of the DoD Establishment of the
 Office of Security Cooperation – Iraq (OSC-I).
 Objective: Assess the progress made by DoD toward
 establishing the Office of Security Cooperation-Iraq.
 Specifically, we will assess the execution of the plan
 to transition authority, personnel, and equipment for       IRAQ        Apr-11   Dec-11
 the OSC-I from DoD to the Chief of Mission. In
 addition, we will assess the sufficiency of the OSC-I
 to carry out its mission to support the development of
 the Iraqi Security Force capability.
 (Project: D2011-D00SPO-0203.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                           15
Department of Defense Office of Inspector General



 PROJECT                                                   COUNTRY   START    FINAL
 Maintenance for Tactical Wheeled Vehicles in
 Kuwait. Objective: Determine whether DoD is
 effectively executing maintenance for tactical
 wheeled vehicles in Kuwait. Specifically, we will
 determine whether DoD is providing appropriate            KUWAIT    Apr-11   Jan-12
 contract oversight to ensure that tactical wheeled
 vehicles receive the necessary repairs and
 maintenance and that repair parts are efficiently used.
 (Project: D2011-D000JA-0212.000)
 DoD Management of the Redistribution Property
 Assistance Team Operations in Kuwait.
 Objective: Determine whether DoD is effectively
 managing Redistribution Property Assistance Team
 (RPAT) operations in Kuwait to ensure DoD is
                                                           KUWAIT    Sep-11   Jun-12
 prepared to handle the anticipated amount of materiel
 related to the drawdown from Iraq.
 (Project: D2011-D000JA-0281.000)
 Pricing and Oversight of the Kuwait Observer
 Controller Team Task Orders.
 Objective: Determine whether the U.S. Army
 Program Executive Office for Simulation, Training,
 and Instrumentation obtained fair and reasonable
 prices for goods and services on the Kuwait Observer
 Controller Team task orders and appropriately             KUWAIT    Sep-11   Sep-12
 developed contractor surveillance and oversight
 processes and procedures for the task orders. This
 project is the third in a series of audits the DoD OIG
 is performing pertaining to the Warfighter Field
 Operations Customer Support contract.
 (Project: D2011-D000AS-0287.000)
 Management of Army High Demand Items at the
 Defense Distribution Depot in Kuwait.
 Objective: Evaluate whether DoD is effectively and
 efficiently managing Defense Distribution Depot           KUWAIT    Jun-12   Jun-13
 operations in Kuwait to reutilize Army high demand
 items for use in overseas contingency operations.
 (Project: TBD)
 U.S. Special Operations Command Use of General
 Purpose Forces. Objective: Determine the ability of
 the U.S. Special Operations Command to use
 General Purpose Forces as enablers to meet their           QATAR    Aug-11   Apr-12
 mission requirements within the U.S. Central
 Command’s area of responsibility.
 (Project: D2011-D000JA-0272.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                       16
U.S. Army Audit Agency



U.S. Army Audit Agency



 PROJECT                                                   COUNTRY      START    FINAL
 Controls Over Vendor Payments - Southwest
 Asia (Phase II). Objective: Determine if the Army        AFGHANISTAN
 has effective controls to ensure the accuracy of             IRAQ
 vendor payments for contingency operations in
                                                                        Jan-09   Nov-11
                                                            KUWAIT
 Southwest Asia.                                             QATAR
 (Project: A-2009-ALL-0118.000)
 Requirements Determination and Validation
 Processes for LOGCAP IV in Afghanistan.
 Objective: Determine if the requirements
 determination and validation processes for the           AFGHANISTAN   Mar-10   Dec-11
 LOGCAP IV contract are in place and operating as
 intended.
 (Project: A-2010-ALL-0421.000)
 Bulk Fuel Operations in Afghanistan.
 Objective: Determine if Class III bulk fuel depot and
 terminal sites in Afghanistan have sufficient internal
 controls over storage and distribution operations to     AFGHANISTAN   Oct-10   Oct-11
 ensure the accurate accountability of fuel products
 and prevent the unauthorized diversion of fuel.
 (Project: A-2011-ALL-0098.000)
 Micro-Purchases of Field Ordering Officers ­
 Afghanistan. Objective: Determine whether
 procedures for micro purchases by field ordering
 officers had sufficient controls in place to ensure      AFGHANISTAN   Oct-10   Nov-11
 purchases were justified and items purchased were
 recorded on accountable records.
 (Project: A-2011-ALL-0135.000)
 Property Accountability in Afghanistan.
 Objectives: (1) Determine if command has sufficient
 policies, processes, and procedures to account for
 sensitive item shipments from Afghanistan to
 CONUS. (2) Determine if command has sufficient
 policies, processes, and procedures to ensure
 visibility and transfer of property during relief in
                                                          AFGHANISTAN   Feb-11   Dec-11
 place transfer of authority (RIP/TOA). (3) Determine
 if command has sufficient policies, processes, and
 procedures for the use of Financial Liability
 Investigation of Property Loss (FLIPLs).
 (Project: A-2011-ALL-0344.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          17
U.S. Army Audit Agency



 PROJECT                                                     COUNTRY      START    FINAL
 Commander’s Emergency Response Program ­
 Afghanistan. Objectives: (1) Determine if the
 established project review and approval processes
 for the Commander’s Emergency Response Program
 in Afghanistan promoted selection of projects that
                                                            AFGHANISTAN   Mar-11   Dec-11
 complied with stated goals of providing immediate
 benefit to the Afghan people. (2) Determine if the
 process for generating CERP funding requirement
 was fully supported by the approved project list.
 (Project: A-2011-ALL-0342.000)
 Controls Over the Afghanistan Security Forces
 Fund (ASFF). Objective: To verify that controls are
 in place and operating within the CSTC-A and the
 Government of the Islamic Republic of Afghanistan          AFGHANISTAN   Sep-11   Mar-12
 to ensure that visibility, accountability, and propriety
 of contributions to the ASFF is maintained.
 (Project: A-2011-FFM-0511.000)
 Atmospherics Program - Afghanistan (AP-A)
 Contract Management and Administration.
 Objectives: (1) To verify that contract requirements
 were detailed, specific, measurable, and updated
 annually. (2) To verify that contract administration
                                                            AFGHANISTAN   Sep-11   Apr-12
 practices were effective to ensure the U.S.
 Government receives the goods and services it pays
 for. (Project: A-2011-ALL-0490.000)
 Bulk Fuel Operations in Afghanistan-Phase II.
 Objective: To verify that the controls over storage
 and distribution operations for Class III bulk fuel
 points in Afghanistan will ensure the accurate             AFGHANISTAN   Sep-11   Apr-12
 accountability of fuel products and prevent the
 unauthorized diversion of fuel.
 (Project: A-2011-ALL-0330.000)
 Contractor Payments-Afghanistan.
 Objective: To verify that the Army has sufficient
 policies and procedures in place to minimize the use       AFGHANISTAN   Sep-11   Apr-12
 of U.S. currency for contractor payments in
 Afghanistan. (Project: A-2011-ALL-0539.000)
 Financial Transparency in the Afghanistan
 Trucking Network Contract, Regional
 Command-South. Objectives: (1) To verify that the
 Afghanistan Trucking Network contract provided the
 financial information needed to meet strategic goals
 of having financial transparency. (2) To verify the
                                                            AFGHANISTAN   Sep-11   Apr-12
 Afghanistan Trucking Network contract contained
 sufficient metrics and controls to meet the contract’s
 objectives and goals.
 (Project: A-2011-ALL-0534.000)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                            18
U.S. Army Audit Agency



 PROJECT                                                  COUNTRY      START    FINAL
 Contract Administration of the National
 Afghanistan Trucking Contract.
 Objective: (1) To verify that the National
 Afghanistan Trucking (NAT) contract has sufficient
 internal controls over movement operations to ensure
                                                         AFGHANISTAN   Feb-12   Sep-12
 the proper shipment of material and prevent waste
 and misuse of government resources. (2) To verify
 that command implemented effective contract
 administration practices.
 (Project: A-2012-ALL-071.000)
 PM Managed Equipment – Afghanistan.
 Objective: To verify that the procedures and controls
 for accountability of PM-managed equipment were         AFGHANISTAN   Feb-12   Sep-12
 in place and operating.
 (Project: A-2012-ALL-0080.000)
 Retrograde Operations in Afghanistan - Class V
 Items. Objectives: (1) To verify that the Army had
 sufficient management controls over Class V assets
 to properly retrograde ammunition from
                                                         AFGHANISTAN   Feb-12   Sep-12
 Afghanistan. (2) To verify that the Army maintained
 sufficient accountability and visibility over
 ammunition during the retrograde process.
 (Project: A-2012-ALL-0079.000)
 LOGCAP IV - Award Fee Strategy and
 Implementation. Objective: To verify that the
 LOGCAP IV contract’s award fee strategy and
 implementation resulted in justified fee payments       AFGHANISTAN   Feb-12   Sep-12
 consistent with applicable policies, regulations, and
 contract provisions.
 (Project: A-2012-ALL-0031.000)
 Performance Metrics for National Afghanistan
 Trucking Contract-Afghanistan.
 Objective: To verify that the National Afghanistan
 Trucking (NAT) contract achieved the intended
 goals of improved transportation management,            AFGHANISTAN   Feb-12   Sep-12
 reduced cost, schedule, and performance risks,
 reduced asset pilferage, and supported the Afghan
 people and U.S. campaign objectives.
 (Project: A-2012-ALL-0081.000)
 Return of Assets from SWA. Objective: To verify
 that the Army has sufficient processes and
 procedures in place for units to: 1) Properly manage
 theater provided equipment and related materiel; and
                                                         AFGHANISTAN   Feb-12   Sep-12
 2) Maintain accountability of organizational materiel
 and equipment during post deployment phases of the
 ARFORGEN cycle.
 (Project: A-2012-ALL-0073.000)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                         19
U.S. Army Audit Agency



 PROJECT                                                 COUNTRY      START    FINAL
 Follow up of Commander’s Emergency Response
 Program-Afghanistan. Objective: To verify that
 command implemented recommendations from the
                                                        AFGHANISTAN   Apr-12   Nov-12
 prior CERP-Afghanistan report and verify the
 corrective actions fixed the problem.
 (Project: A-2012-ALL-0074.000)
 LOGCAP IV - Managing Cost Growth.
 Objective: To verify that LOGCAP IV contracting
 and oversight officials incorporated effective         AFGHANISTAN   Aug-12   Mar-13
 controls in the contract to manage cost growth.
 (Project: A-2012-ALL-0070.000)
 Transportation Discrepancy Reports.
 Objectives: (1) To verify that Army units properly
 reported unit equipment discrepancies during
 deployment/redeployment movements. (2) To verify
 that the Army is accurately reimbursed for unit
                                                        AFGHANISTAN   Aug-12   Mar-13
 equipment discrepancies during
 deployment/redeployment movements.
 (Project: A-2012-ALL-0092.000)
 Forward Operating Base Closures - Afghanistan.
 Objectives: (1) To verify that Afghanistan base
 closure policies, processes, and procedures were
 sufficiently developed, communicated, and
 monitored. (2) To verify that base closures were
                                                        AFGHANISTAN   Aug-12   Mar-13
 properly documented in accordance with United
 States and GIRoA guidelines.
 (Project: A-2012-ALL-0082.000)
 Foreign Excess Personal Property-Afghanistan.
 Objective: To verify that the Army’s policies,
 procedures for transferring excess personal property
 to the Government of the Islamic Republic of           AFGHANISTAN   Aug-12   Mar-13
 Afghanistan conformed to DoD and theater-level
 policies.
 (Project: A-2012-ALL-0083.000)
 Redistribution Property Assistance Teams ­
 Afghanistan. Objective: To verify that procedures
 and controls are in place and operating at
 Redistribution Property Assistance Teams (RPAT)
                                                        AFGHANISTAN   Aug-12   Mar-13
 yards to sufficiently account for Theater Provided
 Equipment (TPE). (Project: TBD)
 Property Accountability-Unit Equipment
 Shipped to Afghanistan. Objective: Determine if
 the Army has sufficient policies, processes, and
 procedures to account for unit property, including       CONUS       Feb-11   Dec-11
 sensitive items and equipment shipments from
 CONUS to Afghanistan.
 (Project: A-2011-ALL-0346.000)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        20
U.S. Army Audit Agency



 PROJECT                                                   COUNTRY   START    FINAL
 Accession of Military Personnel in Contracting.
 Objective: When is the optimal time to transition
 military personnel into contracting to better staff        CONUS    May-11   Feb-12
 contingency contracting offices?
 (Project: A-2011-ALC-0411.000)
 Bulk Fuel Operations in Iraq.
 Objective: Determine if there are sufficient processes
 and procedures for efficient throughput of bulk fuels      IRAQ     Jul-10   Jan-12
 from theater delivery to retail point of issue in Iraq.
 (Project: A-2010-ALL-0541.000)
 U.S. Equipment Transferred to Iraq (USETTI) ­
 Phase II. Objective: Determine whether the proper
 organizational structures, policies, and processes are
 in place to ensure commands can sufficiently               IRAQ     Oct-10   Dec-11
 execute the U.S. Equipment Transfer to Iraq in
 accordance with established transfer authorities.
 (Project: A-2011-ALL-0107.000)
 Audit of the Foreign Excess Personal Property
 (FEPP) Program - Phase II.
 Objective: To determine if U.S. Forces - Iraq have
 sufficient processes in place to execute the Foreign
 Excess Personal Property (FEPP) Program in                 IRAQ     Jan-11   Jan-12
 accordance with the established transfer authority,
 including properly documenting equipment transfers
 to the Government of Iraq.
 (Project: A-2011-ALL-0092.000)
 Property Accountability of Organizational and
 Theater-Provided Equipment in Iraq.
 Objective: Determine if Commands (1) had
 sufficient policies and controls in place to ensure
 units properly accounted for organizational and
                                                            IRAQ     May-11   Jan-12
 theater-provided equipment on property books, and
 (2) units were sufficiently accounting for
 organizational and theater-provided equipment in
 accordance with established policies and procedures.
 (Project: A-2011-ALL-0414.000)
 Commander’s Emergency Response Fund
 (CERP) and I-CERP Closeout, Iraq.
 Objectives: (1) To verify that U.S. Forces, Iraq have
 sufficient processes in place to properly account for
 and close out Commander’s Emergency Response
 Program (CERP) and I-CERP funding and were they
                                                            IRAQ     Sep-11   Apr-12
 operating as intended. (2) To verify that U.S. Forces,
 Iraq have sufficient processes in place to properly
 close out CERP and I-CERP projects.
 (Project: A-2011-ALL-0525.000)



FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                       21
U.S. Army Audit Agency



 PROJECT                                                   COUNTRY   START    FINAL
 Management Controls Over Payments for
 Overseas Contingency Operations
 Transportation-ARCENT. Objective: Does the
 Army have sufficient management controls to ensure
 ARCENT Overseas Contingency Operations funds
                                                           KUWAIT    Oct-10   Oct-11
 are appropriately used for transportation
 requirements?
 (Project: A-2011-ALL-0087.001)
 Management Controls Over Department of
 Defense Activity Address Codes (DODAACs),
 U.S. Army Central Command.
 Objective: Determine if U.S. Army Central
 Command’s management controls over the
 assignment and use of DODAACs are sufficient to
                                                           KUWAIT    Oct-10   Nov-11
 ensure appropriate use of overseas contingency
 operations funds for supplies and equipment, and
 storage and transportation.
 (Project: A-2011-ALL-0087.000)
 Army Prepositioned Stocks (APS-5),
 Requirement Determination Processes.
 Objectives: (1) To verify that the Army’s
 Prepositioned Stock requirements, including those
 for Class IX items, are supported by strategic plans
 and consistent with established mission sets and
 operational projects. (2) To verify that Army
 Prepositioned Stock items, including Class I, VII,
                                                           KUWAIT    Sep-11   Apr-12
 and VIII items, were properly positioned,
 maintained, redistributed, and accounted for so that
 readiness goals were achieved. (3)To verify that
 storage facilities are fully utilized and sufficient to
 store and protect Army Preposition Stocks.
 (Project: A-2011-ALL-0094.000)
 Follow Up Audit - Management and Visibility of
 Government Property Provided on the Base
 Operations Support Contract in Kuwait.
 Objectives: (1) To verify that command
 implemented the recommendations and that the
 corrective actions fix the problem. (2) To verify that
                                                           KUWAIT    Sep-11   Apr-12
 monetary benefits were realized. (3) For the follow-
 on KBOSSS contract, verify that command
 established sufficient policies, processes, and
 procedures to enhance the Army’s accountability and
 visibility of government property.
 (Project: A-2012-ALL-0018.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                       22
Naval Audit Service



Naval Audit Service


 PROJECT                                                COUNTRY      START    FINAL
 Marine Corps Individual Augmentee Integration
 Process. Objective: To verify that Marine Corps
 Individual Augmentees (IAs) are receiving the         AFGHANISTAN
 support needed throughout the deployment cycle to
                                                                     Mar-10   Oct-11
                                                          IRAQ
 reintegrate with family, community, and employers.
 (Project: N2010-NFO000-0124.000)
 Marine Reserve Mobilization Orders.
 Objective: To verify that internal controls provide
 reasonable assurance that Marine Corps Reserve
                                                       AFGHANISTAN
 CONUS mobilization orders are properly                              Jul-11   Jun-12
 authorized, performed, and paid in accordance with       IRAQ
 applicable directives.
 (Project: N2011-NMC000-0105.000)
 Periodic Health Assessment (PHA)
 Requirements for Navy Reserve Accessions.
 Objective: To verify that the Navy Reserve Forces
                                                       AFGHANISTAN
 Command (NAVRESFOR) is efficiently and                              Aug-11   Jul-12
 effectively completing Periodic Health Assessment        IRAQ
 (PHA) requirements for Navy Reserve accessions.
 (Project: N2011-NFO000-0059.000)
 Navy Individual Augmentee Reintegration
 Process. Objective: To verify that Navy Individual
 Augmentees (IAs) are receiving the support needed     AFGHANISTAN
 throughout the deployment cycle to reintegrate with
                                                                     Nov-11   Sep-12
                                                          IRAQ
 family, community, and employers.
 (Project: 2012-070)
 Reporting of Navy Maritime Fuel Consumption.
 Objective: To verify that the Navy ship fuel
 consumption is accurately reported.
                                                         CONUS       Mar-11   Feb-12
 (Project: N2011-NIA000-0030.000)
 Pre-Deployment Medical Screening.
 Objective: To verify that pre-deployment medical         CONUS
 screenings are conducted as required.
                                                                     Mar-12   Jan-13
                                                         OCONUS
 (Project: 2012-062)
 USN Program 9 Synchronization with USMC
 Mobilization. Objective: To verify that current
 USN Program 9/Health and Safety Program (HASP)
 Corpsman support procedures and policies are            CONUS       Apr-12   Feb-13
 synchronized with USMC mobilization timelines as
 intended.
 (Project: 2012-076)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                       23
Naval Audit Service



 PROJECT                                                  COUNTRY   START    FINAL
 Marine Corps War Reserve Levels.
 Objective: To verify that the Marine Corps War            CONUS
 Reserves levels are supported by valid requirements.
                                                                    Apr-12   Feb-13
                                                          OCONUS
 (Project: 2012-042)
 DON Transportation Protective Service Internal
 Controls. Objective: To verify that the internal
 controls for movement of sensitive and classified         CONUS
                                                                    Apr-12   Feb-13
 material under the DON transportation protective         OCONUS
 service are effective.
 (Project: 2012-053)
 Morale, Welfare and Recreation Inventory
 Validation at Deployed Forces.
 Objective: To verify that: (1) Deployed Forces
 Support inventory records properly reflect Morale,
 Welfare, and Recreation (MWR) purchased items;            CONUS
 (2) purchased MWR items are properly transferred,
                                                                    Aug-12   Jun-13
                                                          OCONUS
 maintained, and disclosed in the Navy ship
 inventories; and (3) related management internal
 controls are in place and working effectively.
 (Project: 2012-045)
 Human Resource Offices Outside of the United
 States. Objective: To verify that (1) legal and
 regulatory requirements concerning labor affairs
 between the U.S. Forces and the respective country
 are properly executed; (2) internal controls are in
 place to ensure hiring practices of local nationals
                                                          OCONUS    Aug-11   Jul-12
 (“indirect hires”) and resulting personnel actions are
 executed per established policies and procedures;
 and (3) the appropriate authority has been granted to
 the individuals responsible for the processing of
 personnel actions.
 (Project: N2011-NMC000-0109.000)
 U.S. Marine Corps Small Arms Accountability.
 Objective: To verify that the USMC’s small arms
 program has adequate controls to ensure that small        OTHER    Nov-09   Oct-11
 arms are accounted for and secured.
 (Project: N2010-NMC000-0044.000)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                      24
U.S. Air Force Audit Agency



U.S. Air Force Audit Agency


 PROJECT                                                   COUNTRY      START    FINAL
 U.S. Air Forces Central (AFCENT) Deployed
 Locations Computer Network Controls.
 Objective: Determine whether AFCENT personnel
 effectively controlled access to the networks in the     AFGHANISTAN
 AFCENT Area of Responsibility. Specifically,                 IRAQ
 determine whether AFCENT personnel properly (a)            KUWAIT
                                                                        Jul-10   Oct-11
 identify contractors and foreign nationals with access   KYRGYZSTAN
 to AFCENT networks, (b) authorize network access            QATAR
 for contractors and foreign nationals, and (c)                UAE
 establish network user accounts for contractors and
 foreign nationals.
 (Project: F2010-FB4000-0614)
 Small Arms and Light Weapons Management.
 Objective: Assess if property custodians properly
 manage small arms and light weapons. Specifically,       AFGHANISTAN
 assess if custodians accurately account for items,           IRAQ
                                                                        Jul-10   Oct-11
 promptly report on-hand discrepancies, adequately          KUWAIT
 store and protect items, and appropriately deploy           QATAR
 small arms and weapons.
 (Project: F2010-FC4000-0028)
 Aircraft Fuels Servicing Equipment.
 Objective: Determine whether aircraft fuels              AFGHANISTAN
 servicing equipment is effectively managed.                  IRAQ
 Specifically, evaluate whether personnel properly
 identify and support refueling truck and support
                                                            KUWAIT      Aug-10   Oct-11
 equipment requirements, and accurately account for       KYRGYZSTAN
 these items.                                                QATAR
 (Project: F2010-FC4000-0033)
 U.S. Air Forces Central (AFCENT) AOR
 Utilities.
 Objective: Determine whether AFCENT civil                AFGHANISTAN
 engineers effectively and efficiently manage utilities     KUWAIT
                                                                        Jan-11   Dec-11
 at AFCENT AOR locations. Specifically, determine            QATAR
 if civil engineers provide adequate, safe, and cost-         UAE
 effective utility service.
 (Project: F2011-FD1000-0077)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          25
U.S. Air Force Audit Agency



 PROJECT                                                    COUNTRY      START    FINAL
 Technical Order Management in the AFCENT
 AOR. Objective: Evaluate whether Air Force
 personnel effectively manage Technical Orders
 (TOs) and Time Compliance Technical Orders                AFGHANISTAN
 (TCTOs) in Southwest Asia. Specifically, determine          KUWAIT      Feb-11   Dec-11
 if personnel effectively distribute Technical Orders         QATAR
 and TCTOs and properly implement support
 equipment and parts TCTOs.
 (Project: F2011-FC2000-0493)
 Medical Aspects of Civilian Deployments.
 Objective: Determine whether the Air Force Medical
 Service (AFMS) effectively managed medical
 aspects of civilian deployments. Specifically,
 determine whether officials provided (a) appropriate      AFGHANISTAN
 pre- and post-deployment screening for DoD                  KUWAIT      Feb-11   Dec-11
 civilians and contractors and (b) proper medical             QATAR
 support to deployed civilians. Further, determine
 whether officials effectively deployed civilians to
 augment the AFMS expeditionary force.
 (Project: F2011-FD2000-0289)
 General Fund, Military Equipment, Remotely
 Piloted Aircraft in the AFCENT AOR.
 Objective: Determine whether the Air Force
 accurately recorded General Fund Military
 Equipment – Remotely Piloted Aircraft (RPAs) in
 financial records. Specifically, we will determine
 whether Air Force personnel (a) verified all RPAs in      AFGHANISTAN
 their accountability system exist (existence) and all        IRAQ       May-11   May-12
 RPAs on hand are recorded in their accountability             UAE
 system (completeness), (b) properly supported
 General Fund Military Equipment – RPAs in
 financial records, and (c) correctly reported the value
 of General Fund Military Equipment – RPAs based
 on documentary support.
 (Project: F2011-FB3000-0634)
 Follow-Up Audit - U.S. Air Forces Central
 (AFCENT) Pre-positioned Mobility Bags.
 Objective: Evaluate management actions taken in
 response to Report of Audit F2008-0003-FD3000,            AFGHANISTAN
 “Pre-Positioned Mobility Bags,” February 19, 2008.          KUWAIT
 Specifically, assess whether (a) Air Force personnel
                                                           KYRGYZSTAN    Aug-11   Aug-12
 accurately computed mobility bag requirements after
 pre-positioning mobility bags in the AFCENT area             QATAR
 of responsibility, and (b) AFCENT personnel                   UAE
 properly accounted for and controlled mobility bag
 inventories and adequately managed shelf-life assets.
 (Project: F2011-FD3000-0460)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                           26
U.S. Air Force Audit Agency



 PROJECT                                                 COUNTRY      START    FINAL
 Mine Resistant Ambush Protected Vehicles
 (MRAP).                                                AFGHANISTAN
 Objective: Assess MRAP vehicle requirements and          KUWAIT
 accountability. Specifically, determine if logistics
 personnel properly compute and support MRAP
                                                        KYRGYZSTAN    Sep-11   Aug-12
 vehicle requirements and accurately account for           QATAR
 MRAP vehicles in Air Force data systems.                   UAE
 (Project: F2011-FC4000-0033)
 U.S. Air Forces Central (AFCENT) Area Of
 Responsibility Purchasing.
 Objective: Evaluate whether Air Force personnel        AFGHANISTAN
 effectively manage and control purchases in the          KUWAIT
 AOR. Specifically, determine if purchases are for      KYRGYZSTAN    Sep-11   Sep-12
 valid requirements and properly authorized. Assess        QATAR
 whether the orders are timely delivered and properly       UAE
 accounted for upon receipt.
 (Project: F2011-FC1000-0007)
 Medical Aspects of Contractor Deployments.
 Objective: Determine whether Air Force officials
 effectively manage medical aspects of contractor       AFGHANISTAN
 deployments. Specifically, determine whether
 contractors receive appropriate pre-deployment
                                                          KUWAIT      Oct-11   Aug-12
 screening and whether officials provide authorized        QATAR
 medical support to deployed contractors.
 (Project: F2012-FD2000-0114)
 Inventory Levels for Low Demand Items.
 Objective: Evaluate the management of supply items     AFGHANISTAN
 with low demand. Specifically, assess whether            KUWAIT
 logistics personnel effectively identified inventory
                                                        KYRGYZSTAN    Oct-11   Aug-12
 stock requirements for low demand items and
 properly identified low demand items for                  QATAR
 redistribution.                                            UAE
 (Project: F2012-FC4000-00xx)
 United States Air Forces Central (AFCENT) Pilot
 Training Currency.
 Objective: Determine whether AFCENT personnel          AFGHANISTAN
 effectively manage deployed aircrew readiness.
                                                          KUWAIT
 Specifically, determine whether AFCENT personnel                     Jun-12   Jun-13
 accurately identify requirements and resources to      KYRGYZSTAN
 maintain aircrew readiness and efficiently use            QATAR
 resources to sustain aircrew proficiency.
 (Project: F2012-FD3000-00xx)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        27
U.S. Air Force Audit Agency



 PROJECT                                                  COUNTRY      START    FINAL
 Selected Aspects of Personnel Deployment.
 Objective: Determine whether the Air Force deploys
 and redeploys personnel in accordance with time-        AFGHANISTAN
 phased force deployment data (TPFDD)                      KUWAIT
 requirements. Specifically, determine whether
                                                                       Jun-12   Jun-13
                                                         KYRGYZSTAN
 personnel adhere to TPFDD manning, equipping,              QATAR
 and movement requirements.
 (Project: F2012-FD3000-00xx)
 Shipment of Controlled Materials and Munitions.
 Objective: Evaluate the shipment of controlled          AFGHANISTAN
 materials and munitions. Specifically, determine if
                                                           KUWAIT
 personnel properly identify the need for special                      Jun-12   Jun-13
 handling and select the most efficient method of        KYRGYZSTAN
 transportation for items.                                  QATAR
 (Project: F2012-FC4000-0033)
 Special Packaging Instructions (SPI).
 Objective: Assess if Air Force personnel package        AFGHANISTAN
 and ship items in accordance with SPI. Specifically,      KUWAIT
 determine if packaging instructions are adequate and
                                                                       Jun-12   Jun-13
                                                         KYRGYZSTAN
 if assets are properly packed.                             QATAR
 (Project: F2012-FC4000-0034)
 United States Air Forces Central (AFCENT)
 Storage Container Management.
 Objective: Evaluate whether Air Force personnel
 effectively manage AOR storage container                  OMAN
 requirements and adequately account for, control,         QATAR       Jan-11   Dec-11
 and maintain containers. Further, determine whether        UAE
 the Air Force requires container contents for mission
 operations.
 (Project: F2011-FD3000-0039)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                         28
Special Inspector General For Afghanistan Reconstruction



Special Inspector General for Afghanistan
Reconstruction
 PROJECT                                                  COUNTRY      START    FINAL
 U.S. and International Donor Programs To
 Assist Afghanistan’s Agriculture Sector.
 Objective: Conduct an overall assessment of U.S.
 and international programs to assist Afghanistan’s
 agriculture sector, specifically building capacity at
 the Ministry and its provincial offices. Identify the
                                                         AFGHANISTAN   Oct-10   Oct-11
 resources provided and assess the performance and
 sustainment of assistance programs to the
 agricultural sector.
 (Project: SIGAR-035A)
 Accountability of ANSF Vehicles.
 Objective: Examine the U.S. program for providing
 vehicles for the ANSF. Specifically, we will
 determine (1) the ANSF’s vehicle requirements and
 the extent to which they have been met, (2) whether
 CSTC-A and ANSF can fully account for vehicles
                                                         AFGHANISTAN   Nov-10   Oct-11
 purchased with U.S. funds for the ANSF, including
 the number, type, and operational status; and (3)
 how CSTC-A ensures that ANSF can properly
 safeguard, account for, operate, and maintain
 vehicles purchased with U.S. funds.
 (Project: SIGAR-031A)
 Contract Audit. Review of performance, cost,
 agency oversight, and sustainability of Air Force
 managed contract for the Kabul Military Training        AFGHANISTAN   Dec-10   Oct-11
 Center.
 (Project: SIGAR-039A)
 Contract Audit. Review of performance, cost,
 agency oversight, and sustainability of AFCEE
 managed contracts for the construction of Afghan        AFGHANISTAN   Jan-11   Oct-11
 National Security University.
 (Project: SIGAR-040A)
 Contract Audit. Review of performance, cost,
 agency oversight, and sustainability of USAID
 managed contracts, cooperative agreements, or
                                                         AFGHANISTAN   Jan-11   Dec-11
 grants - with DAI and others: Local Governance
 and Community Development Project.
 (Project: SIGAR-041A)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                         29
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                  COUNTRY      START    FINAL
 Implementation of the Afghan First Program in
 Reconstruction Contracting. Objective: Examine
 systems and controls in place to identify Afghan or
 third-party contractors and ensure that applicable
 laws and regulations (for example, “Afghan First”)
 with respect to these firms are being followed.
 Identify and evaluate U.S. Government, Afghan           AFGHANISTAN   Mar-11   Dec-11
 government, and private sector efforts to develop a
 database(s) of vetted Afghan contractors for use by
 coalition force members seeking to promote the
 Afghan First initiative through prime and
 subcontractor awards.
 (Project: SIGAR-043A)
 USAID Audit Coverage. Objective: Determine the
 extent USAID has conducted required audits of its
 financial mechanisms, including pre-award, incurred     AFGHANISTAN   Apr-11   Dec-11
 costs, and close-outs.
 (Project: SIGAR-044A)
 Contract Audit. USAID’s Office of Transition
 Initiatives contracts with Development Alternatives,
 Inc., in support of the Afghanistan Stabilization       AFGHANISTAN   May-11   Feb-12
 Initiative.
 (Project: SIGAR-047A)
 Private Security Contract Audit. PSC Hart
 Security Limited. Objective: Determine the services
 provided and if in accordance with various
                                                         AFGHANISTAN   Aug-11   Feb-12
 requirements, including vetting, reporting incidents,
 requiring arming packets, and registering in SPOT.
 (Project: SIGAR-045A)
 USACE O&M contracts for the ANA and ANP
 Facilities. Objectives: Whether the contracts are
 being implemented within the contracts’ terms,
 including schedule and cost; whether applicable
                                                         AFGHANISTAN   Aug-11   Feb-12
 requirements for contract oversight were adhered to;
 and provide an updated status of the contractor’s
 O&M training efforts.
 (Project: SIGAR-049)
 Contract Audit. USAID’s cooperative agreement
 with International Relief and Development in
 support of the Afghanistan Vouchers for Increased       AFGHANISTAN   Aug-11   Feb-12
 Production in Agriculture (AVIPA) Plus program.
 (Project: SIGAR-046A)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                         30
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                 COUNTRY      START    FINAL
 Private Security Contract Costs for USAID
 Projects. Objective: Identify the PSCs utilized by
 USAID implementing partners, their cost, and their
 current role and determine what plans USAID’s
 implementing partners have for continuing
                                                        AFGHANISTAN   Sep-11   Feb-12
 reconstruction work in Afghanistan as security is
 transferred to the Afghan Public Protection Force.
 (Project: SIGAR-051A)
 FTE Resources the Department of State Use to
 Manage and Oversee Contracts, Cooperative
 Agreements, and Grants for Afghan
 Reconstruction. Objective: Examine the extent to
 which State Department has sufficient and
 appropriate personnel in place to manage and
                                                        AFGHANISTAN   Oct-11   Apr-12
 oversee performance of contracts, cooperative
 agreements, and grants for Afghanistan
 reconstruction projects.
 (Project: TBD)
 Contract Audit. Review of performance, cost,
 agency oversight, and sustainability of USACE
 contracts awarded to Technologists, Inc., including
 ANP garrison at Khost, an ANP National Training        AFGHANISTAN   Oct-11   Mar-12
 Center at Wardak, and design and construction for
 ANCOP in Kabul.
 (Project: TBD)
 Sustainability Inspections of Completed
 Construction Projects. Select ANSF facility to be
 determined. Objective: Conduct on-site inspection
 of completed projects to verify work was performed,
 construction met expected quality standards, the       AFGHANISTAN   Nov-11   Jan-12
 project is being used for intended purposes, and the
 site has been adequately sustained by the Afghan
 government.
 (Project: TBD)
 ANSF Vehicle Maintenance. Objective: Assess
 U.S. efforts to facilitate maintenance of ANP
 vehicles, including building capacity of ANP to do
 so and extent to which vehicles are being
                                                        AFGHANISTAN   Nov-11   Apr-12
 maintained.
 (Project: TBD)
 ANSF Vehicle Maintenance. Objective: Assess
 U.S. efforts to facilitate maintenance of ANA
 vehicles, including building capacity of ANA to do
                                                        AFGHANISTAN   Nov-11   Apr-12
 so and extent to which vehicles are being
 maintained.
 (Project: TBD)



FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        31
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                   COUNTRY      START    FINAL
 Implementation of the Afghanistan
 Infrastructure Fund. Objective: Assess how DoD
 is using this fund, including compliance with            AFGHANISTAN   Nov-11   Apr-12
 statutory requirements and coordination with DoS.
 (Project: TBD)
 Private Security Contract Costs for CSTC-A
 Funded Projects. Objective: Determine security
 costs as a proportion of overall costs on CSTC-A
 funded reconstruction projects through USACE and
 AFCEE and assess the impact of the dissolution of
                                                          AFGHANISTAN   Dec-11   May-12
 PSCs in Afghanistan on the costs and progress of
 these contracts.
 (Project: TBD)
 ANSF Capability Assessments.
 Objective: Assess the new ANSF capability and
 readiness system and determine if improvements
 have been made to the reliability and integrity of the   AFGHANISTAN   Dec-11   May-12
 information and reporting. Follow-up to
 June 2010 SIGAR report on ANSF rating system.
 (Project: TBD)
 Contract Audit. Objective: Examine contract to
 Lockheed Martin (DAAB07-03-D-B009) to provide
 engineering and program support to Counter               AFGHANISTAN   Dec-11   May-12
 Narcotic Terrorism Program Office.
 (Project: TBD)
 Private Security Contract Audit.
 Objective: Examine selected Blue Hackle contracts
 to determine the services provided and if in
 accordance with various PSC requirements,
 including vetting, reporting incidents, requiring        AFGHANISTAN   Jan-12   May-12
 arming packets, and registering in SPOT. This work
 could be affected by Afghan government plans to
 restrict operations of PSCs.
 (Project: TBD)
 Efforts to Develop ANA Logistics Capability for
 POL Supplies. Objective: Assess U.S. efforts to
 develop ANA logistical capability for petroleum,
 oil, and lubricant supplies; and assess the controls     AFGHANISTAN   Jan-12   May-12
 and systems in place to prevent fraud or waste in the
 distribution.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          32
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                  COUNTRY      START    FINAL
 Sustainability Inspections of Completed
 Construction Projects. Select ANSF facility to be
 determined. Objective: Conduct on-site inspection
 of completed projects to verify work was performed,
 construction met expected quality standards, the        AFGHANISTAN   Jan-12   Mar-12
 project is being used for intended purposes, and the
 site has been adequately sustained by the Afghan
 government.
 (Project: TBD)
 Sustainability Inspections of Completed
 Construction Projects. Select USAID-funded
 construction project to be determined. Objective:
 Conduct on-site inspection of completed projects to
 verify work was performed, construction met             AFGHANISTAN   Jan-12   Mar-12
 expected quality standards, the project is being used
 for intended purposes, and the site has been
 adequately sustained by the Afghan government.
 (Project: TBD)
 Sustainability Inspections of Completed
 Construction Projects. Select ANSF facility to be
 determined. Objective: Conduct on-site inspection
 of completed projects to verify work was performed,
 construction met expected quality standards, the        AFGHANISTAN   Jan-12   Mar-12
 project is being used for intended purposes, and the
 site has been adequately sustained by the Afghan
 government.
 (Project: TBD)
 Sustainability Inspections of Completed
 Construction Projects. Select USAID-funded
 facility to be determined. Objective: Conduct on-
 site inspection of completed projects to verify work
 was performed, construction met expected quality        AFGHANISTAN   Jan-12   Mar-12
 standards, the project is being used for intended
 purposes, and the site has been adequately sustained
 by the Afghan government.
 (Project: TBD)
 Contract Audit: AFCEE Contract with ITSI.
 Objective: Assess cost, schedule, outcome, and
 AFCEE administration of ITSI contract for the
 construction of the Ministry of Defense HQ in
                                                         AFGHANISTAN   Jan-12   May-12
 Kabul.
 (Project: TBD)
 U.S. Efforts to Increase Electricity Supply.
 Objective: Assess status of USAID and DoD efforts
 to increase electrical production.
                                                         AFGHANISTAN   Feb-12   Jun-12
 (Project: TBD)



FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                         33
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                 COUNTRY      START    FINAL
 Unliquidated Obligations of Economic Support
 Funds. Objective: Determine amount of
 unliquidated obligations, develop aging schedule,
 and assess USAID and DoS internal controls
 procedures for assuring unliquidated obligations are
                                                        AFGHANISTAN   Feb-12   Jun-12
 reviewed regularly and unneeded funds are
 deobligated to make them available for other needs.
 (Project: TBD)
 Contract Differences in Agency Oversight for
 ASFF-Funded Construction Contracts (AFCEE
 and USACE). Objective: Assess how AFCEE and
 USACE conduct quality control inspection as part       AFGHANISTAN   Feb-12   Jul-12
 of their contract oversight responsibilities for
 agency funded projects in Afghanistan.
 (Project: TBD)
 Contract Audit. Objective: Assess performance,
 cost, agency oversight, and sustainability of
 $35 million USAID grants with International            AFGHANISTAN   Feb-12   Jul-12
 Fertilizer Development Center.
 (Project: TBD)
 FTE Resources the USAID Uses to Manage and
 Oversee Contracts, Cooperative Agreements, and
 Grants for Afghan Reconstruction.
 Objective: Examine the extent to which USAID has
 sufficient and appropriate personnel in place to       AFGHANISTAN   Feb-12   Aug-12
 manage and oversee performance of contracts,
 cooperative agreements, and grants for Afghanistan
 reconstruction projects.
 (Project: TBD)
 Private Security Contracting: Use of Biometrics
 Data of PSC Personnel and Global Positioning
 Systems Data on Convoys Guarded by PSCs.
 Objective: Examine how both biometrics and Global      AFGHANISTAN   Mar-12   Jul-12
 Positioning System data are used by and shared
 between agencies.
 (Project: TBD)
 State Department Audit Coverage.
 Objective: Determine the specific requirements for
 conducting financial audits of DoS contracts,
                                                        AFGHANISTAN   Mar-12   Aug-12
 cooperative agreements, and grants and the extent to
 which those audit requirements are being met.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        34
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                 COUNTRY      START    FINAL
 Capacity Building Efforts at the Ministry of
 Defense. Objective: Identify the capacity building
 efforts at the Afghan Ministry of Defense and assess
                                                        AFGHANISTAN   Mar-12   Aug-12
 cost and effectiveness of capacity building program
 at the Ministry.
 (Project: TBD)
 Combined Joint Special Operations Task Force –
 Afghanistan Village Stability Program.
 Objective: Assess effectiveness and costs of this
                                                        AFGHANISTAN   Mar-12   Aug-12
 program in establishing local Afghan forces capable
 of protecting themselves and fostering stability.
 (Project: TBD)
 Efforts to Develop ANA Logistics Capability for
 Food Supplies. Objective: Assess U.S. efforts to
 develop ANA logistical capability for feeding troops
 and the internal controls and systems in place to      AFGHANISTAN   Apr-12   Aug-12
 prevent against potential fraud or waste in the
 distribution and use of food supplies.
 (Project: TBD)
 Private Security Contract Audit.
 Objective: Examine selected Compass contracts to
 determine the services provided and if in accordance
 with various PSC requirements, including vetting,
 reporting incidents, requiring arming packets, and     AFGHANISTAN   Apr-12   Sep-12
 registering in SPOT. This work could be affected
 by Afghan government plans to restrict operations
 of PSCs.
 (Project: TBD)
 Contract Audit: USACE Contract With Road
 and Roof Construction Company. Objective:
 Assess cost, schedule, outcome and USACE’s
 administration of contract with Road and Roof
 Construction Company for the construction of an
                                                        AFGHANISTAN   Apr-12   Sep-12
 ANP facility in Nangarhar Province and ANA air
 wing facilities at Khost.
 (Project: TBD)
 Status of Efforts to Implement a Voter
 Registration System Based on a National ID
 System. Objective: Identify the status of U.S. and
 Afghan government efforts to develop a national ID
 system, which will support efforts to identify and
 segregate insurgents from law-abiding Afghan
                                                        AFGHANISTAN   Apr-12   Oct-12
 citizens as well as promote the goal of holding fair
 and transparent elections and examine whether the
 funds have been spent for their intended purpose.
 (Project: TBD)



FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        35
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                 COUNTRY      START    FINAL
 Contract Audit: VEGA Consortium Cooperative
 Agreement with USDA. Objective: Assess cost,
 schedule, outcome, and USDA’s administration of
 cooperative agreement with VEGA Consortium for
 the Change Management Program ($38 million
                                                        AFGHANISTAN   May-12   Sep-12
 capacity building program) at the Ministry of
 Agriculture.
 (Project: TBD)
 Contract Audit: USAID Cooperative Agreement
 with Checchi & Company. Objective: Assess cost,
 schedule, outcome, and USAID’s administration of
 cooperative agreement with Checchi & Company           AFGHANISTAN   Jun-12   Nov-12
 for the administration of the Afghanistan Rule of
 Law project.
 (Project: TBD)
 FTE Resources the Department of Defense Uses
 to Manage and Oversee Contracts, Cooperative
 Agreements, and Grants for Afghan
 Reconstruction. Objective: Examine the extent to
 which DoD has sufficient and appropriate personnel     AFGHANISTAN   Jun-12   Dec-12
 in place to manage and oversee performance of
 contracts, cooperative agreements, and grants for
 Afghanistan reconstruction projects.
 (Project: TBD)
 Sustainability Inspections of Completed
 Construction Projects. Select ANSF facility to be
 determined. Objective: Conduct on-site inspection
 of completed projects to verify work was performed,
 construction met expected quality standards, the       AFGHANISTAN   Jul-12   Sep-12
 project is being used for intended purposes, and the
 site has been adequately sustained by the Afghan
 government.
 (Project: TBD)
 Sustainability Inspections of Completed
 Construction Projects. Select USAID-funded
 facility to be determined. Objective: Conduct on-
 site inspection of completed projects to verify work
 was performed, construction met expected quality       AFGHANISTAN   Jul-12   Sep-12
 standards, the project is being used for intended
 purposes, and the site has been adequately sustained
 by the Afghan government.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        36
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                  COUNTRY      START    FINAL
 Capacity Building Efforts at the Ministry of
 Interior. Objective: Identify the capacity building
 efforts at the Afghan Ministry of Interior and assess
                                                         AFGHANISTAN   Aug-12   Dec-12
 cost and effectiveness of capacity building program
 at the Ministry.
 (Project: TBD)
 Contract Audit: USACE Contract With
 Dyncorp. Objective: Assess cost, schedule,
 outcome, and USACE’s administration of contract
 for the construction of an Afghanistan National
                                                         AFGHANISTAN   Aug-12   Dec-12
 Civil Order of Police Patrol unit in Kabul.
 (Project: TBD)
 Use of Biometrics Information in Afghanistan by
 U.S., Coalition Forces, and Afghan Government
 Entities. Objective: Identify the range and
 application of biometrics data collection efforts in
 Afghanistan. Review will assess how biometrics
 data are being used in Afghanistan, who is              AFGHANISTAN   Aug-12   Jan-13
 collecting this information, and whether program
 overlap and instances of wasteful spending exist,
 whether biometrics data are being effectively used
 to detect and prevent fraud, waste, and abuse.
 (Project: TBD)
 Contract Audit: Select Contract With C-JTSCC.
 Objective: Assess cost, schedule, outcome, and
 agency’s administration of contract to be selected.
                                                         AFGHANISTAN   Sep-12   Jan-13
 (Project: TBD)
 Contract Instruments for ANSF Facility
 Construction Used by AFCEE and USACE.
 Objective: Compare use of Cost, Plus Fixed Fee
                                                         AFGHANISTAN   Sep-12   Feb-13
 Contracts with Firm, Fixed Price Contracts in
 Afghanistan.
 (Project: TBD)
 U.S. Efforts to Develop the ANA Air Wing.
 Objective: Assess costs and status of program,
 including equipment and training needed and             AFGHANISTAN   Sep-12   Feb-13
 construction of facilities.
 (Project: TBD)
 CERP Compliance With FY 2011 NDAA and
 Omnibus Appropriations Act Requirements.
 Objective: Assess DoD compliance with the
 restrictions on use of CERP funds and required
                                                         AFGHANISTAN   Sep-12   Feb-13
 reporting.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                         37
Special Inspector General For Afghanistan Reconstruction



 PROJECT                                                COUNTRY      START    FINAL
 Unliquidated Obligations of ANSF Funds.
 Objective: Determine amount of unliquidated
 obligations, develop aging schedule, and assess
 CSTC-A internal controls procedures for assuring
 unliquidated obligations are reviewed regularly and
                                                       AFGHANISTAN   Sep-12   Feb-13
 unneeded funds are deobligated to make them
 available for other needs.
 (Project: TBD)
 DoD Contracts Audit Coverage.
 Objective: Determine the specific requirements for
 conducting financial audits of DoD contracts and
 the extent to which those audit requirements are
                                                       AFGHANISTAN   Sep-12   Feb-13
 being met.
 (Project: TBD)
 Compliance and Enforcement of Provisions
 Related to PSCs in the 2008 NDAA.
 Objective: Assess DoD, State, and USAIDs
                                                       AFGHANISTAN   Sep-12   Feb-13
 compliance with the 2008 NDAA requirements and
 examine how agencies enforce these requirements.
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                       38
Special Inspector General For Iraq Reconstruction



Special Inspector General for Iraq Reconstruction


 PROJECT                                                COUNTRY   START    FINAL
 Forensic Audits. Objective: Determine whether
 DoD contractor invoices and electronic transactions
 may have included overcharges for goods and
 services to identify possible instances of fraud,
 waste, and abuse and internal control weaknesses
 that enabled these overcharges to occur. This audit
                                                         IRAQ     Jan-09   Jul-12
 addresses the DoD portion of SIGIR’s mandate to
 produce a final forensic audit. Several interim
 reports have been issued under this code and will
 continue to be issued periodically until
 October 2012.
 (Project: 9005)
 Forensic Audits. Objective: Determine whether
 Dept of State contractor invoices and electronic
 transactions may have included overcharges for
 goods and services to identify possible instances of
 fraud, waste, and abuse and internal control
 weaknesses that enabled these overcharges to occur.
                                                         IRAQ     Jan-09   Jul-12
 This audit addresses the State portion of SIGIR’s
 mandate to produce a final forensic audit. Several
 interim reports have been issued under this code and
 will continue to be issued periodically until
 October 2012.
 (Project: 9012)
 Forensic Audits. Objective: Determine whether
 USAID contractor invoices and electronic
 transactions may have included overcharges for
 goods and services to identify possible instances of
 fraud, waste, and abuse and internal control
 weaknesses that enabled these overcharges to occur.
                                                         IRAQ     Jan-09   Jul-12
 This audit addresses the USAID portion of SIGIR’s
 mandate to produce a final forensic audit. Several
 interim reports have been issued under this code and
 will continue to be issued periodically until
 October 2012.
 (Project: 9013)
 Audit of the Status of International Narcotics and
 Law Enforcement Funds Appropriated for Iraq
 Reconstruction. Objective: Determine the extent to
 which INCLE funds have been obligated and               IRAQ     Feb-11   Oct-11
 liquidated, to include identifying the top contracts
 and grants executed with these funds.
 (Project: 1021)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                    39
Special Inspector General For Iraq Reconstruction



 PROJECT                                                 COUNTRY   START    FINAL
 Audit of Funds Provided for the Iraqi
 Commander’s Emergency Response Program.
 Objective: Determine how Government of Iraq funds
 provided to the I-CERP program were managed and
 used by DoD. This audit may result in more than
                                                          IRAQ     Mar-11   Apr-12
 one report and the objectives could be modified over
 time.
 (Project: 1105b)
 Audit of the Cost, Outcome, and Management of
 the Fallujah Wastewater Treatment Plant
 Project. Objective: Determine cost, outcome, and
 management of the project. This audit may result in      IRAQ     Apr-11   Oct-11
 more than one report and the objectives could be
 modified over time.
 (Project: 1018)
 Audit of the Department of State’s Initiatives to
 Develop Iraqi Police. Objective: Determine
 whether DoS has developed a plan for training Iraqi
 police, how progress will be measured, and whether
                                                          IRAQ     May-11   Oct-11
 available funds will meet program requirements.
 This audit may result in more than one report and the
 objectives could be modified over time.
 (Project: 1106)
 Audit of the Department of Defense’s Iraq
 Reconstruction Contract Terminations.
 Objective: Determine outcome of actions to
 terminate reconstruction contracts. This audit may       IRAQ     May-11   Oct-11
 result in more than one report and the objectives
 could be modified over time.
 (Project: 1108)
 Audit of the Indirect Costs Charged by
 Non-Profit Organizations for Administering
 Security Contracts in Iraq. Objective: Determine
 indirect costs associated with administering security
 contracts claimed by non-profit organizations that
                                                          IRAQ     May-11   Oct-11
 received grants or cooperative agreements from the
 Department of State and the U.S. Agency for
 International Development in support of Iraq
 reconstruction activities.
 (Project: 1110)
 Audit of the Department of Defense’s Efforts to
 Account for Funds From the Development Fund
 for Iraq. This is a follow-on audit to a July 2010
 report (SIGIR 10-020). Objective: Determine              IRAQ     Jun-11   Oct-11
 whether funds used for Iraq reconstruction projects
 can be accounted for.
 (Project: 1112)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                     40
Special Inspector General For Iraq Reconstruction



 PROJECT                                                 COUNTRY   START    FINAL
 Audit of the Status of Recommendations Made to
 the Department of Defense. Objective: Determine
 whether DoD has taken action on audit
 recommendations made by SIGIR. This audit may            IRAQ     Aug-11   Oct-11
 result in more than one report and the objectives
 could be modified over time.
 (Project: 1102)
 Audit of the Results of Efforts to Develop the
 Capacity of the Iraqi Ministries of Defense and
 Interior. Objective: Determine success of DoD’s
 efforts to develop the capacities of the Iraqi
 Ministries of Defense and Interior. This audit may
                                                          IRAQ     Aug-11   Jan-12
 result in more than one report and the objectives
 could be modified over time.
 (Project: 1107)
 Audit of the Department of State’s Process to
 Transfer Reconstruction Projects to the
 Government of Iraq. Objective: Evaluate the
 process to transfer reconstruction projects to the       IRAQ     Aug-11   Jan-12
 Government of Iraq’s Ministry of Planning since
 November 2010.
 (Project: 1111)
 Audit of the Department of Defense’s
 Management of Selected Large Dollar Iraq
 Reconstruction Contract Closeouts.
 Objective: Review status of DoD largest dollar
 contracts eligible for closeout awarded with Iraq
 Relief and Reconstruction Fund and the Iraq
 Security Forces Fund. This audit will complement
                                                          IRAQ     Oct-11   Jan-12
 work underway on contract closeout by the U.S.
 Government Accountability Office. This audit may
 result in more than one report and the objectives
 could be modified over time.
 (Project: 1109)
 Audit of the Departments of Justice and State
 Management of Rule of Law Activities in Iraq.
 Objective: Assess the management of the
 Departments of Justice and State’s programs to
                                                          IRAQ     Oct-11   Apr-12
 support the development of the Rule of Law in Iraq.
 This audit may result in more than one report and the
 objectives could be modified over time.
 (Project: 1020)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                     41
Special Inspector General For Iraq Reconstruction



 PROJECT                                               COUNTRY   START    FINAL
 Audit of the Government’s Reviews of Business
 Systems for Contractors Receiving U.S. Funds to
 Work in Iraq. Follow-up to a July 2011 report
 (SIGIR 11-022). Objective: Determine whether
 weaknesses in DoD’s oversight of the contractor’s
                                                        IRAQ     Nov-11   Apr-12
 accounting, estimating, billing, and purchasing
 systems leave the DoD vulnerable to overcharges.
 (Project: 1113)
 Audit of Plans to Spend Remaining Funds from
 Iraq Security Forces Fund Appropriation.
 Objective: Determine whether spend plans for
 unobligated funds are linked to strategic goals and
 the extent to which the Government of Iraq is          IRAQ     Nov-11   Apr-12
 providing commensurate funds to support U.S.
 investments in the Iraqi Security Forces and
 Ministries of Defense and Interior.
 (Project: 1114)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                   42
Department of State Office of Inspector General



Department of State Office of Inspector General


 PROJECT                                                 COUNTRY      START    FINAL
 Review of the Attorney General’s
 Anti-Corruption Unit (JSSP) in Afghanistan.
 Purpose: Provide an overall review and summary of
 the requirements and provisions of the Islamabad
 Embassy Security Force contract and to determine
 the amount of funding the Department has obligated
 and expended; how the Department ensures that
 costs are properly allocated and supported; to what
                                                        AFGHANISTAN   Jan-11   Dec-11
 extent the Department’s anti-corruption mentoring
 and justice sector support program assistance has
 achieved its objectives and the impediments; and the
 effectiveness of Embassy Kabul in managing and
 overseeing the assistance program.
 (Project: 11-MERO-3013)
 Regional Review of the Bureau of Diplomatic
 Security (DS) Anti-Terrorism Assistance (ATA)
 Training Program. Purpose: Provide an overall
 review and summary of the requirements,
 provisions, and costs of the Bureau of Diplomatic
 Security (DS) Anti-Terrorism Awareness (ATA)           AFGHANISTAN
 Training Program; goals and objectives of the
                                                            IRAQ
 program, what indicators have been established to                    Feb-11   Nov-11
 measure performance; and how DS administers the          PAKISTAN
 program to ensure performance and costs of the            OTHER
 program are meet. Assess the status of program
 records, management controls, costs, and value of
 this program to the mission of the Department of
 State.
 (Project: 11-MERO-3009)
 Audit of Department of State Process To Award
 the Worldwide Protective Services (WPS)
 Contract and Kabul Embassy Security Force
 Task Order. Purpose: Determine whether the
 Department’s process to award the WPS contract         AFGHANISTAN   Mar-11   Nov-11
 and subsequent Kabul task order included required
 procedures to assess contractor responsibility, past
 performance, and technical merit. (MANDATE)
 (Project: 11-AUD-3011)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        43
Department of State Office of Inspector General



 PROJECT                                                  COUNTRY      START    FINAL
 Review of Emergency Action Plan (EAP) ­
 Embassy Kabul (Program Evaluation).
 Purpose: Evaluate and assess the current status and
 effectiveness of the Emergency Action Plan for
 Embassy Kabul to determine the reasonableness and
                                                         AFGHANISTAN   Jun-11   Dec-11
 their level of coordination and cooperation with the
 military commanders in-country.
 (Project: 11-MERO-1875)
 Audit of Bureau of International Narcotics and
 Law Enforcement (INL) Corrections System
 Support Program. Objective: Review and evaluate
 programs to improve Afghan prison administration
 and reduce the risk of radicalizing Afghan prisoners.
 Specifically, to determine (1) the effectiveness of
 technical and leadership training, and institutional    AFGHANISTAN   Oct-11
 capacity building programs; (2) whether the prison
 classification systems separates common criminals
 from insurgents; (3) the effectiveness of programs
 designed to reduce radicalization of prisoners; and
 (4) whether facilities meet the needs of women and
 juveniles. (Project: TBD)
 Audit of the Worldwide Protective Services
 (WPS) Task Order for the Kabul Embassy
 Security Force (KESF). Objective: Determine
                                                         AFGHANISTAN   Oct-11
 whether the Department is effectively administering
 and overseeing the WPS task order for KESF.
 (Project: TBD)
 Audit of the Administration and Oversight of
 Contracts to Construct Prisons within
 Afghanistan. Objective: Determine whether the
 Bureau of International Narcotics and Law               AFGHANISTAN   Apr-12
 Enforcement Affairs (INL) has effectively
 administered funds expended for prison construction
 within Afghanistan. (Project: TBD)
 Review of the Bureau of Diplomatic Security
 (DS) Afghanistan Anti-Terrorism Assistance
 (ATA) Training Program. Purpose: Provide an
 overall review and summary of the requirements,
 provisions, and costs of the Afghanistan Anti-
 Terrorism Assistance (ATA) Training Program;
 goals and objectives of the program, what indicators
                                                         AFGHANISTAN   Apr-12
 have been established to measure performance; and
 how DS administers the program to ensure
 performance and costs of the program are meet.
 Assess the status of program records, management
 controls, costs, and value of this program to the
 mission of the Department of State.
 (Project: TBD)

FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                         44
Department of State Office of Inspector General



 PROJECT                                                 COUNTRY      START    FINAL
 Audit of the Worldwide Protective Services
 (WPS) Task Order for the Herat and Mazar-e-
 Sharif Security Forces. Objective: Determine
 whether the Department is effectively administering    AFGHANISTAN   Sep-12
 and overseeing the WPS task order for Herat and
 Mazar-e-Sharif.
 (Project: TBD)
 Review of Operations and Maintenance Costs for
 Embassy Baghdad (Contract Evaluation).
 Purpose: The primary objectives of this audit are to
 determine: 1) the requirements and provisions of the
 contract and task orders; 2) the amount of funding
 the Department has obligated and expended to
 provide embassy facility operations and
 maintenance through contracts for FYs 2005-2010;
 3) the effectiveness of PAE’s contract performance
 in providing facility operations and maintenance to
 Embassy Baghdad; 4) PAE’s controls for                    IRAQ       Jan-11   Dec-11
 inventorying, recording, and safeguarding U.S.
 Government- furnished equipment and property in
 Iraq, whether the equipment has been properly
 accounted for, and the challenges to maintaining
 accountability; 5) how well the Department
 administers and manages the contract and task
 orders to provide oversight of PAE’s performance in
 Iraq; and 6) how the Department ensures that costs
 are properly allocated and supported.
 (Project: 11-MERO-3004)
 Review of the Bureau of Diplomatic Security
 (DS) Iraq Anti-Terrorism Awareness (ATA)
 Training Program (Performance Evaluation).
 Purpose: Provide an overall review and summary of
 the requirements, provisions, and costs of the Iraq
 Anti-Terrorism Awareness (ATA) Training
 Program; goals and objectives of the program, what
 indicators have been established to measure
                                                           IRAQ       Mar-11   Nov-11
 performance; and how DS administers the program
 to ensure performance and costs of the program are
 meet. Assess the status of program records,
 management controls, costs, and value of this
 program to the mission of the Department of State.
 (Project: 11-MERO-3010)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        45
Department of State Office of Inspector General



 PROJECT                                                  COUNTRY   START    FINAL
 Review of Emergency Action Plan (EAP) ­
 Embassy Baghdad (Program Evaluation).
 Purpose: Evaluate and assess the current status and
 effectiveness of the Emergency Action Plans for
 Embassy Baghdad to determine the reasonableness
                                                           IRAQ     Jun-11   Nov-11
 and their level of coordination and cooperation with
 the military commanders in-country.
 (Project: 11-MERO-1874)
 Audit of the Worldwide Protective Services
 (WPS) Task Order for the Baghdad Embassy
 Security Force (BESF). Objective: Determine
 whether the Department is effectively administering
                                                           IRAQ     Oct-11
 and overseeing the WPS task order for BESF.
 (Project: TBD)
 Audit of the Department’s Management of
 Medical Operations Supporting Personnel
 Assigned in Iraq. Objective: Determine whether
 the Department is effectively managing and                IRAQ     Jan-12
 resourcing medical services for personnel assigned
 in Iraq.
 (Project: TBD)
 Audit of the Department of State Transition to a
 Civilian-led Mission in Iraq (Phase III).
 Objective: Determine whether and to what extent
 the U.S. Mission Iraq is implementing a master
 plan, which addresses personnel, security, facilities,
                                                           IRAQ     Jan-12
 including land and buildings, logistical and medical
 support arrangements, and funding.
 (Project: TBD)
 Review of the Embassy Baghdad Air Wing
 Operations in Iraq (Contract Evaluation).
 Purpose: Review and evaluate the procurement
 process to include the methods for determining the
 contract requirements and the contract award
 decisions, review the funding sources to determine
 allowable, allocable and reasonableness of costs
 claimed by the contractor, and evaluate the               IRAQ     Apr-12
 Department’s review process for timely adjudication
 of invoicing and payment. (Note – there may be
 multiple separate evaluations based on the number
 of contractors who may be awarded different
 aviation contracts or task orders (TOs) within Iraq to
 accomplish this mission.)
 (Project: TBD)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                      46
Department of State Office of Inspector General



 PROJECT                                                  COUNTRY    START    FINAL
 Audit of the Worldwide Protective Services
 (WPS) Task Order for Kirkuk and Mosul, Iraq.
 Objective: Determine whether the Department is
                                                            IRAQ     Sep-12
 effectively administering and overseeing the WPS
 task order for Kirkuk and Mosul.
 (Project: TBD)
 Audit of the Department of State’s
 Administration and Oversight of the Jordanian
 Police Modernization Program.
 Objective: Determine whether the Bureau of
 International Narcotics and Law Enforcement              JORDAN     Jul-12
 Affairs’ (INL) administration and oversight of the
 Jordanian Police Modernization Program have been
 effective and achieved stated performance goals.
 (Project: TBD)
 Audit of the Worldwide Protective Services
 (WPS) Task Order for the Jerusalem Security
 Forces. Objective: Determine whether the
 Department is effectively administering and
                                                           OTHER     Feb-12
 overseeing the WPS task order for the Jerusalem
 Security Forces. (Project: TBD)
 Review of the Bureau of Diplomatic Security
 (DS) Pakistan Anti-Terrorism Awareness (ATA)
 Training Program (Performance Evaluation).
 Purpose: Provide an overall review and summary of
 the requirements, provisions, and costs of the
 Pakistan Anti-Terrorism Awareness (ATA) Training
 Program; goals and objectives of the program, what
 indicators have been established to measure
                                                          PAKISTAN   Feb-11   Nov-11
 performance; and how DS administers the program
 to ensure performance and costs of the program are
 met. Assess the status of program records,
 management controls, costs, and value of this
 program to the mission of the Department of State.
 (Project: 11-MERO-3011)
 Review of U.S. Mission Pakistan Local Security
 Guard Programs. Purpose: Provide an overall
 review and summary of the requirements and
 provisions of the Islamabad Embassy Security Force
 contract; objectives of the contracts and task orders,
 what indicators have been established to measure
 performance; and how the Department administered         PAKISTAN   Mar-11   Jan-12
 the contract to oversee the contractor’s performance
 and costs of the contract. Assess the status of
 contract records, management controls, cost, and
 value of this contract to the mission of the U.S.
 Department of State.
 (Project: 11-MERO-3015)

FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                       47
Department of State Office of Inspector General



 PROJECT                                                COUNTRY    START    FINAL
 Review of Internal Management Controls of
 Funds Provided to Embassy Islamabad
 (Program Evaluation). Purpose: Determine
 whether specific internal control procedures have
 been properly designed and put in place for all the
 program funds to include procedures for planning,      PAKISTAN   Sep-11   Feb-12
 organizing, directing, and controlling program
 operations, and the system put in place for
 measuring, reporting, and monitoring program
 performance.
 (Project: 11-MERO-3014)
 Review of Emergency Action Plan (EAP) ­
 Embassy Islamabad (Program Evaluation).
 Purpose: Evaluate and assess the current status and
 effectiveness of the Emergency Action Plan for
                                                        PAKISTAN   Oct-11
 Embassy Islamabad to determine the reasonableness
 and their level of coordination and cooperation with
 the military commanders in-country.
 (Project: TBD)
 Compliance Followup Review of 2010 Inspection
 of Embassy Islamabad and Constituent Posts.
 Purpose: Review the degree the embassy and
                                                        PAKISTAN   Jan-12
 consulate implemented recommendations from
 2010 inspection.
 (Project: TBD)
 Audit of the Administration and Oversight of
 Economic Support Funds for Pakistan.
 Objective: Determine whether the Department is
                                                        PAKISTAN   Apr-12
 effectively administering and overseeing the
 Pakistan Economic Support Funds.
 (Project: TBD)
 Audit of the Administration and Oversight of the
 Pakistan National Police Training and
 Mentoring Program. Objective: Determine
 whether the Bureau of International Narcotics and
 Law Enforcement Affairs’ (INL) administration and      PAKISTAN   Sep-12
 oversight of the Pakistan National Police training
 and mentoring program have been effective and
 achieved stated performance goals.
 (Project: TBD)
 Audit of the Operations and Maintenance
 Contract for Embassy Islamabad.
 Objective: Determine whether the Department has
                                                        PAKISTAN   Sep-12
 effectively managed and overseen the operations
 and maintenance contract for Embassy Islamabad.
 (Project: TBD)



FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                     48
U.S. Agency For International Development Office of Inspector General



U.S. Agency for International Development
Office of Inspector General

 PROJECT                                                  COUNTRY       START    FINAL
 Financial Audit of Black & Veatch. - AIRP U.S.
 costs, Contract No. 306-I-00-06-00517-00,
 August 25, 2006 - September 30, 2008 –                  AFGHANISTAN    Jan-11   Oct-11
 Period 1 Audit.
 (Project: FF200911)
 Review of USAID/Afghanistan’s Afghan Civilian
 Assistance Program (ACAP). Objective:
 Determine if assistance is reaching intended
 beneficiaries and if costs charged to USAID are
                                                         AFGHANISTAN    Mar-11   Oct-11
 reasonable, allowable, and allocable.
 (Project: FF101511)
 Audit of USAID/Afghanistan’s Afghanistan
 Stabilization Initiative (ASI) – Southern Region.
 Objective: Is USAID/Afghanistan’s Afghanistan
 Stabilization Initiative (ASI) – Southern Region
 achieving its main goals of (i) building confidence
 between communities and the Afghan Government
 through the improvement of the economic and social
                                                         AFGHANISTAN    Apr-11   Oct-11
 environment in the region and (ii) increasing public
 access to information about Afghan Government
 social, economic, and political activities and
 policies?
 (Project: FF100511)
 Audit of Internal Controls Over the Separate
 Maintenance Allowance at USAID/Afghanistan.
 Objective: Has USAID/Afghanistan adopted
                                                         AFGHANISTAN    May-11   Oct-11
 appropriate internal controls to prevent improper use
 of the separate maintenance allowance benefit?
 (Project: FF100711)
 Financial Audit of Chemonics International.
 306-DOT-I-01-08-00033-00, June 26, 2009 –
 September 30, 2010.
                                                         AFGHANISTAN    Jun-11   Oct-11
 (Project: FF200611)
 Audit of the Skills Training for Afghan Youth
 (STAY) Project. Objective: Determine if the project
 is accomplishing its main goal of empowering
 empower youth and adults through an information,
                                                         AFGHANISTAN    Jul-11   Dec-11
 communication, and advocacy network; through
 education and skills training; and through
 opportunities for employment.
 (Project: FF101611)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          49
U.S. Agency For International Development Office of Inspector General



 PROJECT                                                  COUNTRY       START    FINAL
 Review of Responses to Internal Audit Findings
 on the Local Governance and Community
 Development (LGCD) Program.
                                                         AFGHANISTAN    Jul-11   Dec-11
 Objective: Determine if selected costs charged to
 USAID are reasonable, allowable, and allocable.
 (Project: FF101711)
 Oasis International Schools, Inc. –
 306-A-00-05-00522-00, 5/27/2005 – 12/30/2010            AFGHANISTAN    Sep-11   Jan-12
 (Project: FF201411)
 Audit of USAID/Afghanistan’s Incentives Driving
 Economic Alternatives for the North, East, and
 West (IDEA-NEW) Program. Objective: Is
 USAID/Afghanistan’s Incentives Driving Economic
 Alternatives for the North, East, and West Program      AFGHANISTAN    Sep-11   Feb-12
 (IDEA-NEW) achieving its main goal of increasing
 licit and commercially viable agricultural-based
 alternatives for rural Afghans?
 (Project: FF100411)
 Audit of USAID/Afghanistan’s Direct Assistance
 to the Ministry of Public Health in Support of the
 Partnership Contracts for Health Services
 Program. Objective: Is USAID/Afghanistan’s
 direct assistance to the Ministry of Public Health in
 support of the Partnership Contracts for Health
                                                         AFGHANISTAN    Sep-11   Feb-12
 Services Program achieving its main goal of
 procuring basic and essential packages of health
 services in the target provinces?
 (Project: FF100211)
 Kabul Schools Program - UNOPS –
 306-A-00-07-00517-00, 6/7/2007 - 3/31/2011              AFGHANISTAN    Oct-11   Feb-12
 (Project: not assigned yet)
 Financial Audit of Development Alternatives, Inc.
 Cooperative Agreement No. 306-A-00-09-00508-00,
                                                         AFGHANISTAN    Oct-11   Feb-12
 March 2, 2009 - September 30, 2010.
 (Project: not assigned yet)
 Financial Audit of Development Alternatives, Inc.
 306-DOT-I-02-08-00035-00, June 26, 2009 ­               AFGHANISTAN    Oct-11   Feb-12
 September 30, 2010. (Project: not assigned yet)
 CEPPS - Support Increased Electoral Participation
 in Afghanistan - 306-A-00-08-00529-00                   AFGHANISTAN    Oct-11   Feb-12
 (Project: not assigned yet)
 DAI - Development Alternatives, Inc. –
 306-DOT-I-02-08-00035-00, 6/26/2009 - 6/25/2012         AFGHANISTAN    Oct-11   Feb-12
 (Project: not assigned yet)
 IOM - Cross cutting Programs/Leahy (ACAP) –
 306-A-00-07-00516-00                                    AFGHANISTAN    Oct-11   Feb-12
 (Project: not assigned yet)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          50
U.S. Agency For International Development Office of Inspector General



 PROJECT                                              COUNTRY           START    FINAL
 Ministry of Transportation and Civil Aviation
 (MoTCA) - Regional Airports Project –
 306-IL-11-05-17, 12/21/2010-8/30/2011
                                                     AFGHANISTAN        Oct-11   Feb-12
 (Project: not assigned yet)
 IFES - Support to Electoral Process (STEP) –
 DFD-I-06-05-00225-00                                AFGHANISTAN        Oct-11   Feb-12
 (Project: not assigned yet)
 Independent Directorate for Local Governance –
 District Delivery Program - 306-IL-10-04-01,
                                                     AFGHANISTAN        Oct-11   Feb-12
 08/16/2010 - 08/05/2011
 (Project: not assigned yet)
 MSH - Technical Support to Central and Provincial
 Ministry of Public Health (Tech-Serve) –
 306-A-00-06-00522-00
                                                     AFGHANISTAN        Oct-11   Feb-12
 (Project: not assigned yet)
 Deloitte - Economic Growth and Governance
 Initiative (EGGI) - EEM-I-00-07-00005-00            AFGHANISTAN        Oct-11   Feb-12
 (Project: not assigned yet)
 CAII - Building Education Support Systems for
 Teachers (BESST) - 306-M-00-06-00508-00             AFGHANISTAN        Oct-11   Feb-12
 (Project: not assigned yet)
 Chemonics Intl. - Accelerated Sustainable
 Agriculture Program (ASAP) –
                                                     AFGHANISTAN        Oct-11   Feb-12
 306-M-00-07-00501-00
 (Project: not assigned yet)
 DAI - Local Governance and Community
 Development Project (LGCD) –
                                                     AFGHANISTAN        Oct-11   Feb-12
 DFD-I-00-05-00250-00
 (Project: not assigned yet)
 IRD - Afghanistan Vouchers for Increased
 Production in Agriculture (AVIPA) –
                                                     AFGHANISTAN        Oct-11   Feb-12
 DFD-A-00-08-00304-00
 (Project: not assigned yet)
 Financial Audit of Deutsche Investitions- und
 Entwicklungsgesellschaft mbh (DEG).
 Cooperative Agreement No.306-A-00-05-00512-00,      AFGHANISTAN        Oct-11   Feb-12
 Jan 1, 2009 – Dec 31, 2009
 (Project: not assigned yet)
 Audit of USAID/Afghanistan Design for
 Sustainability in the Education Program.
 Objective: Determine whether USAID/Afghanistan
                                                     AFGHANISTAN        Oct-11   Mar-12
 has built sustainability into selected Education
 programs.
 (Project: FF100112)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          51
U.S. Agency For International Development Office of Inspector General



 PROJECT                                                  COUNTRY       START    FINAL
 Audit of USAID/Afghanistan’s Performance-
 Based Governor’s Fund. Objective: Determine if
 the Performance-Based Governor’s Fund is meeting
 its primary goal of providing financial and technical
 assistance to Governors and their teams so that they    AFGHANISTAN    Oct-11   Mar-12
 are better able to meet community outreach needs,
 enhance their relationships with citizens, and
 improve their overall management capacity.
 (Project: FF100312)
 Audit of Gender-Related Activities in Selected
 USAID/Afghanistan Programs. Objective: How
 gender issues have been considered in designing,
 implementing, and measuring the performance of
 selected USAID/Afghanistan programs. What               AFGHANISTAN    Oct-11   Mar-12
 impacts these programs have had on the health and
 educational status, economic development, and
 political empowerment of Afghan women and girls.
 (Project: FF100412)
 Audit of USAID/Afghanistan’s Management
 Controls for Efficiently Managing Program
 Operations. Objective: Determine whether
 USAID/Afghanistan has established performance
 indicators for efficiency of program operations and
 used these indicators to manage its programs and        AFGHANISTAN    Oct-11   Mar-12
 USAID/Afghanistan’s monitoring of its cost-
 reimbursement contracts provides reasonable
 assurance that efficient methods and effective cost
 controls are used.
 (Project: FF100512)
 AF Ferguson and Company –
 306-C-00-09-00520-00, 3/8/2009 - 3/7/2011               AFGHANISTAN    Nov-11   Mar-12
 (Project: not assigned yet)
 ACS-Aircraft Charter Solutions –
 306-C-00-10-SURGE-00510, 2/1/2010 - 1/31/2015           AFGHANISTAN    Nov-11   Mar-12
 (Project: not assigned yet)
 Black & Veatch Special Projects Cooperation ­
 Kandahar-Helmand Power Initiative –
                                                         AFGHANISTAN    Nov-11   Mar-12
 306-C-00-11-00506-00, 12/4/2010 - 09/30/2013
 (Project: not assigned yet)
 Deloitte, Economic Governance and Growth
 Initiative - 306-EEM-I-04-07-00005-00,
 8/15/2009 - 8/30/2011
                                                         AFGHANISTAN    Nov-11   Mar-12
 (Project: not assigned yet)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          52
U.S. Agency For International Development Office of Inspector General



 PROJECT                                                COUNTRY         START    FINAL
 Audit of USAID/Afghanistan’s Region Afghan
 Municipalities Program for Urban Populations
 for Regional Platforms (RAMP-UP) Southern
 Region. Objectives: Is USAID/Afghanistan’s
 Regional Afghan Municipalities Program for Urban
 Populations (RAMP UP) achieving its main goal of      AFGHANISTAN      Nov-11   Apr-12
 creating effective, responsive, democratic,
 transparent, accountable, and gender sensitive
 municipal governance in select municipalities in
 Afghanistan?
 (Project: FF100611)
 Financial Audit of Louis Berger Group Inc./
 Black & Veatch. - AIRP Local Costs,
 Contract No. 306-I-00-06-00517-00,
 October 1, 2009 - September 30, 2010 –
                                                       AFGHANISTAN      Dec-11   Apr-12
 Period 4 Audit.
 (Project: FF201111)
 Academy for Educational Development (AED) ­
 306-A-00-06-00506-00, 1/23/2006 - 1/31/2011           AFGHANISTAN      Dec-11   Apr-12
 (Project: not assigned yet)
 Tetra Tech Inc. - Kabul Electricity Service
 Improvement Program - EPP-I-06-03-00008-00            AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)
 UNDP - Enhancing Legal and Electoral Capacity for
 Tomorrow (ELECT) - 306-A-00-09-00519-00               AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)
 JHPIEGO Corp - Health Support Service Project
 (HSSP) - 306-A-00-06-00523-00                         AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)
 LBG/B&V Special Project Joint Venture - AIRP
 IQC for O&M Capacity Building –
 306-I-14-06-00517-00
                                                       AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)
 WOCCU - Rural Finance and Cooperative
 Development (RUFCOD) –
 306-C-00-09-00531-00
                                                       AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)
 Chemonics Intl. - Trade Access and Facilitation for
 Afghanistan (TAFA) - 306-C-00-09-00529-00             AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)
 Mercy Corps - Support for the Community
 Development Program (CDP) Program in Balkh,
 Kunduz, Baghlan, and Bamyan
                                                       AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)
 Deloitte - Afghan Civil Service Support Program
 (ACSS) - 306-C-00-07-00508-00                         AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          53
U.S. Agency For International Development Office of Inspector General



 PROJECT                                                COUNTRY         START    FINAL
 World Bank Afghanistan - Afghanistan
 Reconstruction Trust Fund (ARTF) for the
 implementation of various GIRoA programs –            AFGHANISTAN      Jan-12   May-12
 EEE-G-00-02-00025020
 (Project: not assigned yet)
 AKTC - AGHA KHAN TRUST for CULTURE
 KABUL - 306-G-00-10-00529-00,
                                                       AFGHANISTAN      Jan-12   May-12
 6/23/2010 - 8/15/2011
 (Project: not assigned yet)
 Turquoise Mountain Trust –
 306-A-00-09-00503-00, 11/2/2008 - 11/1/2015           AFGHANISTAN      Jan-12   May-12
 (Project: not assigned yet)
 Audit of USAID/Afghanistan’s Limited Scope
 Grant in Support of the District Development
 Program (DDP).
 Objective: Is USAID/Afghanistan’s limited scope
                                                       AFGHANISTAN      Jan-12   Jun-12
 grant supporting the District Development Program
 strengthening governance capabilities and
 responsiveness at the district level?
 (Project: FF100911)
 Review of USAID/Afghanistan Payroll Internal
 Controls.
 Objective: Determine if USAID/Afghanistan has
                                                       AFGHANISTAN      Jan-12   Jun-12
 sufficient internal controls in place to properly
 approve time charges and pay employees on time.
 (Project: FF100612)
 Audit of USAID/Afghanistan’s Transition Plans.
 Objective: Determine if USAID/Afghanistan has
 developed measurable performance targets to be
 achieved by USAID programs by 2014 and assessed       AFGHANISTAN      Jan-12   Jun-12
 the capability of the Government of Afghanistan to
 sustain program accomplishments after 2014.
 (Project: FF100712)
 Audit of USAID/Afghanistan’s Regional Afghan
 Municipalities Program for Urban Population
 (RAMP UP) – East.
 Objective: Determine whether the Regional Afghan
 Municipalities Program for Urban Population—East
 program is achieving its main goal of creating
 effective, responsive, democratic, transparent,
                                                       AFGHANISTAN      Jan-12   Jun-12
 accountable, municipal governance in the eastern
 provinces by increasing the capacity of the
 Afghanistan municipal officials to enable, support,
 and sustain economic growth.
 (Project: FF100812)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          54
U.S. Agency For International Development Office of Inspector General



 PROJECT                                                    COUNTRY      START    FINAL
 Audit of the Sustainability of
 USAID/Afghanistan’s Office of Infrastructure,
 Engineering, and Energy Programs.
 Objective: Determine if roads, vertical structures,
 and water projects turned over to the Government of       AFGHANISTAN   Jan-12   Jun-12
 Afghanistan are being maintained and used for their
 intended purposes and if the Afghan Government
 earns enough revenue to maintain this infrastructure.
 (Project: FF100912)
 Review of USAID/Afghanistan’s Contracts and
 Cooperative Agreements. Objective: Determine if
 USAID/Afghanistan’s open contracts and
 cooperative agreements contain required clauses and       AFGHANISTAN   Apr-12   Sep-12
 if waivers were obtained for non-competitive
 awards.
 (Project: FF101012)
 Audit of USAID/Afghanistan’s Kandahar Power
 Initiative. Objective: Determine the Kandahar
 Power Initiative is meeting its main goal of
 increasing the supply and distribution of electrical
 power from Afghanistan’s South East Power System          AFGHANISTAN   Apr-12   Sep-12
 with particular emphasis given to the City of
 Kandahar in support of the U.S. Government’s
 counterinsurgency strategy.
 (Project: FF101112)
 Audit of the Financial Sustainability of
 USAID/Afghanistan’s Energy Sector Programs.
 Objective: Determine if the Government of
 Afghanistan earns enough revenue to operate and           AFGHANISTAN   Apr-12   Sep-12
 maintain its electrical infrastructure, including the
 infrastructure financed by USAID/Afghanistan.
 (Project: FF101212)
 Audit of USAID/Afghanistan’s Approaches to
 Providing Technical Assistance to the
 Government of Afghanistan. Objective: Determine
 the advantages and disadvantages of the different
 approaches that USAID/Afghanistan uses to provide         AFGHANISTAN   Apr-12   Sep-12
 technical assistance to the Government of
 Afghanistan and examine how USAID/Afghanistan
 decides which technical assistance approach to use.
 (Project: FF101312)
 Review of USAID/Afghanistan’s Use of Third
 Country National Employees. Objective:
 Determine if USAID/Afghanistan is efficiently using
 third-country national employees appropriately while
                                                           AFGHANISTAN   Jul-12   Dec-12
 training Afghan staff to assume their responsibilities.
 (Project: FF101412)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                           55
U.S. Agency For International Development Office of Inspector General



 PROJECT                                            COUNTRY             START    FINAL
 Audit of Field Staff Monitoring of
 USAID/Afghanistan Programs. Objective:
 Determine if USAID/Afghanistan is hiring qualified
 and experienced individuals to serve in the field in
 support of its mission in Afghanistan and if field   AFGHANISTAN       Jul-12   Dec-12
 staff are monitoring USAID programs in accordance
 with Mission Order 103.2 and other applicable
 criteria.
 (Project: FF101512)
 Follow-up Audit on Selected OIG
 Recommendations to USAID/Afghanistan.
 Objective: Determine if USAID/Afghanistan’s
 actions on selected OIG recommendations corrected AFGHANISTAN          Jul-12   Dec-12
 the problems that led to the original
 recommendations.
 (Project: FF101612)
 Audit of the USAID/Iraq’s Community Action
 Program III Activity. Objective: Has
 USAID/Iraq’s Community Action Program III been
 effective in supporting community organizations,        IRAQ           Feb-10   Oct-11
 community-level projects, and assistance to victims
 of armed conflict?
 (Project: EE100210)
 Survey of USAID/Iraq’s Prime Recipients
 Compliance with Audit Requirements for Its Sub-
 Recipients. Objective: None. As a survey (“S”)          IRAQ           Jul-10   Oct-11
 report, an audit objective is not required.
 (Project: EE101210)
 Audit of USAID/Iraq’s Elections Administration
 Support Program. Objective: Has USAID/Iraq’s
 Elections Administration Support Program increased
 professional and institutional capacity over the        IRAQ           Mar-11   Feb-12
 election cycle, thus requiring less international
 assistance?
 (Project: EE100211)
 Audit of the Sustainability of Selected
 USAID/Iraq-Funded Information Technology
 Systems. Objective: Are past USAID/Iraq-funded
                                                         IRAQ           Apr-11   Oct-11
 information technology activities currently used as
 intended?
 (Project: EE100511)
 Audit of Legislative Strengthening Program in
 Iraq. Objective: Has USAID/Iraq’s Legislative
 Strengthening program improved the sustainability       IRAQ           Jan-12   Jun-12
 of democratic governance in Iraq?
 (Project: EE100112)



FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          56
U.S. Agency For International Development Office of Inspector General



 PROJECT                                                  COUNTRY       START    FINAL
 Survey of Security Contractor Services Employed
 by USAID/Iraq’s Contractors and Grantees.
 Objective: Compare and analyze differing security
                                                            IRAQ        Jan-12   Jun-12
 mechanisms employed by implementing partners
 and their effect on costs and efficiency.
 (Project: EE100212)
 Audit of the QED Group’s Monitoring and
 Evaluation of USAID Programs in Iraq.
 Objective: Has QED Group’s monitoring and
 evaluation of USAID programs in Iraq improved              IRAQ        Jan-12   Jun-12
 program management and oversight of USAID/Iraq
 and OFDA?
 (Project EE100312)
 Audit USAID/Iraq's Access to Justice Program.
 Objective: Is USAID/Iraq’s Access to Justice
 Program achieving its main goal to improve access
 by the vulnerable and disadvantaged populations to
                                                            IRAQ        Jul-12   Dec-12
 Iraq’s legal system?
 (Project: EE100412)
 Audit of USAID/Central Asian Republics’ Design
 for Sustainability in the Regional Energy
 Security, Efficiency and Trade (RESET)                   KAZAKHSTAN
 Program.                                                 KYRGYZSTAN
 Objective: Did USAID/Central Asian Republic build         TAJIKISTAN
                                                                        Oct-11   Feb-12
 sustainability into its Regional Energy Security,       TURKMENISTAN
 Efficiency and Trade (RESET) Program?
 (Project: 55100212)
 Audit of USAID/Central Asian Republics’ Local
 Development Project in Kyrgyzstan.
 Objective: Is USAID/Central Asian Republics’
 Local Development Project achieving its main goal
                                                         KYRGYZSTAN     Jan-12   Jun-12
 of stimulating rapid, diversified, and sustained
 economic growth by supporting local economic
 development in Kyrgyzstan?
 (Project: 55100312)
 Audit of USAID/Pakistan’s Pakistan Firms
 Project.
 Objective: Is USAID/Pakistan’s Pakistan FIRMS
 Project achieving its main goals of strengthening the    PAKISTAN      Feb-11   Dec-11
 business sector and improving productivity and
 quality?
 (Project: GG100411)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          57
U.S. Agency For International Development Office of Inspector General



 PROJECT                                                  COUNTRY       START    FINAL
 Audit of USAID/Pakistan’s Energy Efficiency
 and Capacity Program. Objective: Is
 USAID/Pakistan’s Energy Efficiency and Capacity
 Program achieving its main goals of promoting
 energy efficiency and conservation practices to          PAKISTAN      Jun-11   Dec-11
 reduce demand and building the capacity of public
 sector organizations to better address the needs of
 the energy sector?
 (Project: GG100511)
 Audit of USAID/Office of Transition Initiative’s
 Program Implemented by Creative Associates,
 Inc. Objective: Has USAID/OTI’s program to
 establish and manage activities in Pakistan led to
 identification of community priorities and
                                                          PAKISTAN      Sep-11   Jan-12
 implementation of effective small-scale rural
 infrastructure projects?
 (Project: GG101111)
 Audit of USAID/Pakistan’s Design for
 Sustainability in the Jamshoro Thermal Power
 Station Repair and Maintenance Activity.
 Objective: Determine whether USAID/Pakistan built        PAKISTAN      Oct-11   Mar-12
 sustainability into the Jamshoro Thermal Power
 Station Repair and Maintenance Activity.
 (Project: GG100212)
 Audit of USAID/Pakistan’s Benazir Income
 Support Program. Objective: Determine whether
 USAID/Pakistan’s cash transfer provided to the
 Benazir Income Support Program reached the
                                                          PAKISTAN      Oct-11   Mar-12
 intended beneficiaries.
 (Project: GG100512)
 Audit of USAID/Pakistan’s Gomal Zam
 Multipurpose Dam Project. Objective: Determine
 whether USAID/Pakistan’s Gomal Zam
                                                          PAKISTAN      Oct-11   Mar-12
 Multipurpose Dam Project is on track to meet its
 budget and timelines.
 (Project: GG100812)
 Audit of USAID/Pakistan’s Reconstruction
 Activities in Flood-Affected Areas.
 Objective: Determine whether USAID/Pakistan’s
 reconstruction activities of schools and a hospital in   PAKISTAN      Oct-11   Mar-12
 the flood affected areas are being implemented
 effectively.
 (Project: GG101112)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          58
U.S. Agency For International Development Office of Inspector General



 PROJECT                                                COUNTRY         START    FINAL
 Follow-up Audit of USAID/Pakistan’s Livelihood
 Development Program for the Lower Region of
 the Federally Administered Tribal Areas.
 Objective: Determine if USAID/Pakistan
 implemented the recommendations from Audit
                                                        PAKISTAN        Jan-12   Jun-12
 Report No. G-391-11-001, December 10, 2010, and
 whether those actions were effective.
 (Project: GG100312)
 Audit of USAID/Pakistan’s Lady Willingdon
 Hospital Renovation Project.
 Objective: Determine whether USAID/Pakistan’s
 Lady Willingdon Hospital Renovation Project is on
                                                        PAKISTAN        Jan-12   Jun-12
 track to meet its budget and timelines.
 (Project: GG100712)
 Audit of USAID/Pakistan’s Entrepreneurs
 Program. Objective: Determine whether
 USAID/Pakistan’s Empower Pakistan-Entrepreneurs
                                                        PAKISTAN        Jan-12   Jun-12
 program is increasing the incomes of at least 75,000
 micro-entrepreneurs and small enterprise owners.
 (Project: GG101012)
 Audit of USAID/Pakistan’s Assessment and
 Strengthening Program for Local Organizations
 and Government of Pakistan Entities.
 Objective: Determine whether USAID/Pakistan’s
                                                        PAKISTAN        Apr-12   Sep-12
 Assessment and Strengthening Program improved
 the capacity of local organizations and Government
 of Pakistan entities to responsibly manage USAID
 funds. (Project: GG100412)
 Audit of Selected Infrastructure Activities Under
 USAID/Pakistan’s Punjab Municipal Services
 Delivery Program. Objective: Determine whether
                                                        PAKISTAN        Aug-12   Jan-13
 USAID/Pakistan’s Punjab Municipal Services
 Delivery Program is achieving its goal to upgrade
 selected infrastructure. (Project: GG100612)
 Audit of USAID/Pakistan’s Monitoring and
 Evaluation Program. Objective: Determine
 whether USAID/Pakistan is using results from its       PAKISTAN        Aug-12   Jan-13
 monitoring and evaluation program to manage its
 portfolio. (Project: GG100912)
 Audit of USAID/Tajikistan’s Productive
 Agriculture Program. Objective: Is
 USAID/Tajikistan’s Productive Agriculture Program
 achieving its main goal of increasing the              TAJIKISTAN      Jul-11   Dec-11
 productivity of traditional agricultural crops and
 expanding the agricultural profitability of farmers?
 (Project: 55100711)



FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          59
U.S. Government Accountability Office



U.S. Government Accountability Office 


 PROJECT                                                 COUNTRY      START    FINAL
 Afghanistan Logistics Support.
 By August 31, 2010, DOD plans to have about
 10,000 troops in Afghanistan. Because of its austere
 conditions and other unique challenges, some of
 which GAO has identified previously, supporting
 operations in Afghanistan will likely continue to be
 very difficult. (1) To what extent has DOD provided
 the personnel, equipment, and supplies needed to
 support operations in Afghanistan in accordance
 with DOD’s established plans and timelines?            AFGHANISTAN   Mar-10
 (2) What factors, if any, have impacted DOD’s
 ability to provide the personnel, equipment, and
 supplies needed to support operations in
 Afghanistan, and how has DOD addressed these
 factors? (3) To what extent has DOD established a
 clear chain of command for the transportation of
 personnel, supplies, and equipment into and around
 Afghanistan?
 (Project: 351492)
 U.S. Civilian Surge in Afghanistan.
 As the U.S. Government seeks to build Afghan
 government institutions to stand on their own, an
 unprecedented expansion of the U.S. civilian
 presence in Afghanistan is underway. As billions of
 additional dollars and hundreds of new personnel
 flow into the country, it is important that U.S.
 agencies respond effectively to the U.S.
 government’s staffing priorities as well as prepare
                                                        AFGHANISTAN   Apr-10
 their personnel for deployment in a conflict zone.
 (1) To what extent and through what processes are
 U.S. agencies prioritizing and fulfilling staffing
 requirements for the civilian surge in Afghanistan?
 (2) What steps have U.S. agencies taken to prepare
 their personnel for deployment?
 (Project: 320766)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                       60
U.S. Government Accountability Office



 PROJECT                                                    COUNTRY      START    FINAL
 Operational Contractor Support Pre-deployment
 Training for Contingencies.
 (1) To what extent does pre-deployment training
 ensure that military personnel, outside the
 acquisition community, are prepared for their roles
 and responsibilities with regard to requirements
 definition, contract management, and contingency
 contracting? (2) To what extent are the individual
 augmentees provided pre-deployment training
 related to operational contract? (3) To what extent, if
 any, do DOD and the services include contractors
                                                           AFGHANISTAN
 and contract operations in mission rehearsal                            Apr-10
 exercises? (4) To what extent, if any, do the training       IRAQ
 exercises reflect current requirements for tracking
 contractors, any requirements related to working
 with private security contractors and programs such
 as the Afghan First program and the Commanders
 Emergency Response Program (CERP)? (5) To what
 extent has the department implemented the
 recommendations made by the Gansler Commission
 and others related to pre-deployment training for
 non-acquisition personnel.
 (Project: 351474)
 State Contracting for Conflict Countries.
 The Department of State has assumed unprecedented
 roles and responsibilities over the last decade in
 conflict environments, most notably in Afghanistan,
 Iraq, and Pakistan. GAO is conducting a
 comprehensive assessment of State’s acquisition
 functions for planning, awarding, administering, and
 overseeing contracts with performance in conflict
 environments. Objectives are to assess: (1) the
 organizational alignment of State’s acquisition           AFGHANISTAN
 functions with its missions and needs; (2) State’s
                                                               IRAQ      Mar-11
 acquisition workforce, both in terms of number of
 personnel and their expertise; (3) State’s use and          PAKISTAN
 management of contracts awarded and/or
 administered on its behalf by other federal
 departments or agencies; (4) the statutory and
 regulatory authorities available for use in conflict
 environments; and (5) the efforts planned or
 underway to enhance the capacity of State’s
 acquisition workforce and reform its acquisition
 practices and processes.
 (Project: 120976)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          61
U.S. Government Accountability Office



 PROJECT                                                    COUNTRY      START    FINAL
 Biometrics: Last Tactical Mile.
 Objectives are to assess (1) the extent to which DOD
 biometrics policies and practices are implemented in
 predeployment training and in theater, and the
 adequacy of these policies/practices; (2) the extent to
 which DOD biometrics equipment is meeting                 AFGHANISTAN   May-11
 operational needs (e.g., communication, supply, and
 maintenance); and (3) DOD efforts to achieve
 efficiencies pertaining to biometrics collection and
 information management.
 (Project: 351617)
 Afghanistan Fiscal Sustainability.
 (1) To what extent do U.S. and donor contributions
 fund total expenditures in Afghanistan? (2) To what
 extent do budget projections provide a complete and
                                                           AFGHANISTAN   Jun-11
 reliable forecast of Afghanistan’s fiscal
 sustainability, including domestic revenues and total
 costs?
 (Project: 320850)
 Use of Government Personnel or Contractors to
 Train the Afghan National Police.
 Congress mandated GAO to ascertain: (1) What the
 roles and responsibilities are of contractors and U.S.
 government personnel and how are the                      AFGHANISTAN   Jul-11
 responsibilities divided between the two groups; and
 (2) What are the advantages and disadvantages of
 using contractors or U.S. government personnel?
 (Project: 320860)
 DOD Oversight of Private Security Contractors
 (PSCs) in Afghanistan.
 Examine to what extent (1) DOD has a process to
 determine if the use of PSCs in Afghanistan to meet
 specific missions is appropriate; (2) DOD has a
 process to ensure that PSCs in Afghanistan are
 selecting personnel with appropriate backgrounds,
 training, and capabilities; (3) DOD has established a
                                                           AFGHANISTAN   Jul-11
 process to ensure that private security prime
 contractors and subcontractors are performing their
 duties in Afghanistan; and, (4) DOD has begun to
 formulate plans to meet security requirements in
 Afghanistan without the use of PSCs.
 (Project: 351616)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          62
U.S. Government Accountability Office



 PROJECT                                                    COUNTRY      START    FINAL
 Institutionalizing Security Force Assistance
 Capabilities within the General-purpose Force.
 DOD plans to institutionalize security force
 assistance (SFA) capabilities—advising and
 partnering with foreign forces—within its
 conventional or general purpose forces (GPF). To
 what extent: 1) has DOD defined SFA roles,
 missions and capabilities for GPF and special forces,
 including combatant commanders’ needs for these
 capabilities; 2) have the services institutionalized      AFGHANISTAN   Jul-11
 SFA within the GPF, to include training, equipping,
 and tracking personnel and related costs factors and
 funding sources; 3) have DOD and the services
 incorporated lessons from current operations in their
 efforts; and 4) has the Army developed its concept
 for regionally aligning its brigades with geographic
 commands, including how it envisions selecting and
 using these brigades, and associated costs factors.
 (Project: 351634)
 Fuel Demand Management at Forward-Deployed
 Locations in Afghanistan.
 (1) To what extent has DOD established a viable
 approach to provide visibility and accountability for
 fuel demand management in Afghanistan?
 (2) What initiatives does DOD have underway to
 promote fuel efficiency across services in
 Afghanistan and what are the related challenges?
                                                           AFGHANISTAN   Aug-11
 (3) To what extent are these efforts being
 coordinated across services? (4) To what extent does
 DOD currently measure or have plans in place to
 measure the results of its energy efficiency efforts in
 Afghanistan?
 (Project: 351613)
 U.S. and International Programs to Screen and
 Conduct Background Investigations on Afghan
 Security Personnel and Recruits.
 (1) To what extent are recruits and other ANA-ANP
 personnel vetted or screened by the U.S.
 Government for ties to criminal, terrorist, or
 insurgent forces? (2) What challenges to these
 efforts exist, if any, and how have U.S. agencies
                                                           AFGHANISTAN   Aug-11
 addressed these challenges? (3) To what extent have
 Defense and State modified screening procedures in
 response to attacks? (4) What, if any, safeguards are
 in place to protect U.S. personnel training or
 working with ANA/ANP forces?
 (Project: 320851)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          63
U.S. Government Accountability Office



 PROJECT                                                    COUNTRY      START    FINAL
 Intelligence, Surveillance, and Reconnaissance
 (ISR) Collection and Tasking Management.
 (1) To what extent does DOD have visibility over all
 available national, theater, and organic ISR
 capabilities used in support of military operations?
 (2) To what extent do DOD collection managers
 involved in the tasking of ISR capabilities have          AFGHANISTAN
 access to real-time information regarding ISR
                                                                         Aug-11
                                                              IRAQ
 capabilities and their mission availability and use
 such information to guide additional tasking?
 (3) To what extent do DOD collection managers
 involved in the tasking of ISR capabilities receive
 relevant collection management training?
 (Project: 351603)
 Transitioning Lead Security Responsibility to
 Afghanistan.
 (1) What progress has been made in achieving the
 conditions to transition security responsibility to the
 Afghan National Security Force (ANSF) and
 security ministries? (2) To what extent does the
 transition rely on U.S. military support? (3) To what     AFGHANISTAN   Sep-11
 extent are the transition and drawdown of U.S.
 troops in Afghanistan reflected in DOD’s budget
 requests, including for fiscal year 2012?
 (4) What are the U.S. plans and estimated resources
 needed to sustain the ANSF?
 (Project 320856)
 DOD’S Equipping Strategies to Reset Equipment
 Returning from Iraq.
 Since 2007, the Army has spent about $54 billion for
 reset - the repair, recapitalization, or replacement of
 equipment - and is expecting to retrograde additional
 amounts of equipment for reset as a result of the
 draw down of U.S. forces from Iraq. Key Questions:
                                                              IRAQ       Jan-10
 (1) To what extent does the Army prioritize
 equipment for reset? (2) To what extent are the
 annual depot reset requirements consistent with
 budget requests?
 (Project: 351431)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                          64
U.S. Government Accountability Office



 PROJECT                                                COUNTRY   START    FINAL
 Transition to a Predominantly Civilian Presence
 in Iraq.
 In July 2010, GAO issued a report on the plans and
 estimated costs for U.S. civilian agencies’ future
 operations in Iraq as U.S. forces withdraw. This
 current engagement will follow up on issues raised
 in that report, specifically: (1) What are the
 estimated costs for transitioning to and maintaining
 the planned U.S. presence in Iraq? (2) To what
 extent does State have the capabilities, resources,     IRAQ     Apr-11
 and authorities needed to provide security for the
 planned diplomatic sites and programs? (3) How
 have the estimated costs, scope, objectives, and
 implementation schedule of State’s planned police
 program changed since July 2010? (4) How have the
 estimated costs, scope, objectives, and
 implementation schedule of the State-DOD Office of
 Security Cooperation-Iraq changed since July 2010?
 (Project: 320843)
 Humanitarian Assistance For Religious
 Minorities In Iraq.
 Last year, State informed Congress that it had spent
 over $25 million to provide immediate humanitarian
 assistance and economic development programs for
 these communities. (1) What are the amounts,
 sources, and intended uses of such funds since
 FY2008? (2) How do State and USAID and their
                                                         IRAQ     Jun-11
 implementing partners ensure that funds are used for
 intended purposes by the targeted communities?
 (3) To what extent does the administration have a
 comprehensive strategy to address the security and
 development needs of these communities?
 (Project: 320852)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                   65
U.S. Government Accountability Office



 PROJECT                                                    COUNTRY    START    FINAL
 Pakistan Nuclear Networks.
 The Enhanced Partnership with Pakistan Act of 2009
 prohibits military assistance and arms transfers to
 Pakistan in fiscal years 2011-2014 unless the
 Secretary of State, under the direction of the
 President, certifies for Congress that the Government
 of Pakistan is continuing to cooperate with the
 United States in efforts to dismantle supplier
 networks relating to the acquisition of nuclear
 weapons-related materials, such as providing
 relevant information from or direct access to
 Pakistani nationals associated with such networks.         PAKISTAN   Jul-10
 The Act requires GAO to independently assess this
 certification not later than 120 days after the date the
 Secretary of State makes the certification. GAO will
 assess the extent to which (1) officials assessed and
 disclosed the reliability of evidence used to support
 the certification; (2) conclusions in the certification
 are consistent with the views of experts, academia,
 and other U.S. agencies, or differences are
 explained; and (3) there are gaps in the issues
 considered in making the certification.
 (Project: 320783)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                        66
Section 852 Projects




SECTION 2. Section 852 Projects
The projects listed below are pursuant to the reporting requirements of Public Law 110-417,
“The National Defense Authorization Act for Fiscal Year 2009,” section 852, “Comprehensive
Audit of Spare Parts, Purchases, and Depot Overhaul and Maintenance of Equipment For
Operations in Iraq and Afghanistan,” October 14, 2008. Because this is a separate requirement,
these projects are not included in the overall Facts and Figures count of projects preceding
Section 1 of this plan.

 PROJECT                                  AGENCY        START       FINAL         COUNTRY
 Controls and Processes Pertaining
 to the Defense Logistics Agency’s
 Procurement Automated Contract
 Evaluation System.
 The DoD OIG is determining whether
 the Defense Logistics Agency (DLA)
 supply centers awarded contracts
 through the Procurement Automated
 Contract Evaluation (PACE) system        DoD OIG        Aug-10      Jan-12         CONUS
 to suppliers who offered the best
 value, determine whether DLA has a
 process to validate that prices were
 fair and reasonable, and determine
 whether the supply centers uniformly
 applied the controls and rules
 governing PACE awards.
 (Project D2010-D000LD-0264.000)
 Contractor Logistics Support
 Contract for Stryker Vehicles with
 General Dynamics Land Systems.
 The DoD OIG is renouncing the
 Audit of Material Purchases Made
 Through Partnership Agreements at
 Anniston Army Depot
 (D2010-D000CE-0190.000) to focus
 the audit on the contractor logistics
 support contract for Stryker vehicles.
 Objective: Evaluate the effectiveness
                                          DoD OIG        Oct-10     Mar-12          CONUS
 of the contractor logistics support
 sustainment strategy for Stryker
 vehicles. Specifically, we will review
 contract funding procedures, contract
 type, performance metrics, contractor
 billings, and controls over
 Government Property that is being
 managed by the contractor.
 (Project: D2011-D000CH-0032.000)


FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                             67
Section 852 Projects



 PROJECT                                    AGENCY     START    FINAL    COUNTRY
 Aviation Contract Maintenance.
 Objective: Verify that aviation
 contract maintenance is effectively
 performed in accordance with              NAVAUDSVC   Jun-11   Apr-12    CONUS
 contract terms and other pertinent
 guidance.
 (Project: N2011-NIA000-0037.000)
 Contractor Maintained Serialized
 Parts.
 Objective: Evaluate management of
 serialized/life limited parts for
 contractor maintained aircraft.
 Specifically, determine if personnel        AFAA      Sep-11   Aug-12    CONUS
 properly identified serialized parts
 and recorded time change frequency
 and service item life in maintenance
 systems.
 (Project: F2011-FC2000-0875)
 Peacetime Engine Requirements.
 Objective: Assess whether Air Force
 personnel effectively manage peace
 time engine requirements.
 Specifically, determine if personnel        AFAA      Feb-12   Feb-13    CONUS
 properly identify and budget peace
 time engine overhaul and sparing
 requirements.
 (Project: F2011-FC2000-0020)
 Engine Parts Reclamation.
 Objective: Assess Air Force
 management of engine parts
 reclamation. Specifically determine if
 personnel properly identified parts for     AFAA      Feb-12   Feb-13    CONUS
 reclamation and applied available
 reclaimed parts to future
 requirements.
 (Project: F2012-FC2000-0018)
 Engine Centralized Repair
 Facilities (CRFs).
 Objective: Evaluate effectiveness of
 engine CRF management.
 Specifically determine if personnel
                                             AFAA      Apr-12   Apr-13    CONUS
 properly allocate equipment and
 manpower and accurately reflected
 pipeline and inventory levels in
 requirements computations.
 (Project: F2012-FC2000-0016)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                  68
Section 852 Projects



 PROJECT                                 AGENCY     START     FINAL    COUNTRY
 Depot Maintenance Core Workload
 Requirements.
 Objective: Assess depot maintenance
 core capability planning.
 Specifically, evaluate whether
 program managers properly identified     AFAA       May-12   May-13    CONUS
 core capability requirements and used
 accurate workload requirements and
 capacity data to implement core
 workload.
 (Project: F2012-FC2000-0021)
 High Velocity Maintenance (HVM).
 Objective: Evaluate program
 managers and maintenance personnel
 management of the HVM process.
 Specifically, determine if personnel
 properly identified material,
                                          AFAA       Sep-12   Sep-13    CONUS
 equipment, and manpower
 requirements to support HVM
 production.
 (Project: F2012-FC2000-0023)




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                69
Appendix A. Scope and Methodology


APPENDIX A. Scope and Methodology
The Department of Defense Office of Inspector General, Office of the Special Deputy Inspector
General for Southwest Asia (SDIG-SWA) prepared this Comprehensive Oversight Plan for
Southwest Asia (COPSWA). The COPSWA includes descriptions of oversight projects that
directly impact efforts in Southwest Asia and surrounding areas. This is a non-audit service
product. This plan identifies a total of 331 Southwest Asia related oversight projects:
140 ongoing and 191 planned for FY 2012, as of October 1, 2011.

Project information on the ongoing and planned oversight efforts contained in this plan was
submitted by the following contributing organizations:
   •   Department of Defense Office of Inspector General;
   •   U.S. Army Audit Agency;
   •   Naval Audit Service;
   •   U.S. Air Force Audit Agency;
   •   Special Inspector General for Afghanistan Reconstruction;
   •   Special Inspector General for Iraq Reconstruction;
   •   Department of State Office of Inspector General;
   •   U.S. Agency for International Development Office of Inspector General; and
   •   U.S. Government Accountability Office.

The information for the plan was obtained directly from the contributing organizations, which
also validated the content submitted for accuracy and completeness. All decisions regarding the
selection, location, and dates of projects were made by the contributing organizations.
SDIG-SWA staff compiled the report and reviewed the content for potential duplicative planned
projects, errors, omissions, and timing updates. Where questionable input was identified, the
staff or the SDIG asked the respective organizations to review and clarify the highlighted
attributes of each project. As a result of these discussions, the impacted organizations may have
decided to withdraw a submitted project that was determined to be duplicative, completed,
cancelled, or terminated; add a newly planned project; or clarify the objectives, status, or dates of
the project.

After the consolidated draft COPSWA was prepared, it was distributed to each contributing
organization for an opportunity to validate the content of the plan and to make final adjustments
or updates to the plan, as necessary. During this phase, each organization also reviewed the
consolidated draft COPSWA to identify and resolve any further potential duplication issues
directly with other contributing organization(s).

The legislative citations in Appendix A of this report were reviewed by the Office of General
Counsel of the Department of Defense Office of Inspector General.

At the end of this review and validation process, all final changes were submitted and made, and
the final COPSWA was prepared and issued.



FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                                  70
Appendix B. Legislative Mandates


APPENDIX B. Legislative Mandates
Section 842
Public Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,” section
842, “Investigation of Waste, Fraud, and Abuse in Wartime Contracts and Contracting Processes
in Iraq and Afghanistan,” January 28, 2008, requires the Inspector General of the Department of
Defense to develop a comprehensive plan for a series of audits of Department of Defense
contracts, subcontracts, and task and delivery orders for the logistical support of coalition forces
in Iraq and Afghanistan. The Act also requires that the Special Inspectors General for Iraq
Reconstruction and Afghanistan Reconstruction develop a comprehensive plan for a series of
audits of Federal agency contracts, subcontracts, and task and delivery orders for the
performance of security and reconstruction functions in Iraq and Afghanistan.

Section 852
This FY 2012 COPSWA update also includes the Department of Defense Office of Inspector
General, Army Audit Agency, Naval Audit Service, and Air Force Audit Agency planned and
ongoing oversight efforts related to Public Law 110-417, “The National Defense Authorization
Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of Spare Parts, Purchases, and
Depot Overhaul and Maintenance of Equipment For Operations in Iraq and Afghanistan,”
October 14, 2008, which states:

            COMPREHENSIVE AUDIT OF SPARE PARTS PURCHASES AND DEPOT
            OVERHAUL AND MAINTENANCE OF EQUIPMENT FOR OPERATIONS IN
            IRAQ AND AFGHANISTAN.

            (a) AUDITS REQUIRED.-The Army Audit Agency, the Navy Audit Service, and
            the Air Force Audit Agency shall each conduct thorough audits to identify potential
            waste, fraud, and abuse in the performance of the following:

            (1) Department of Defense contracts, subcontracts, and task and delivery orders
            for­
            (A) depot overhaul and maintenance of equipment for the military in Iraq and
            Afghanistan; and
            (B) spare parts for military equipment used in Iraq and Afghanistan; and

            (2) Department of Defense in-house overhaul and maintenance of military
            equipment used in Iraq and Afghanistan.

            (b) COMPREHENSIVE AUDIT PLAN.­
            (1) PLANS.-The Army Audit Agency, the Navy Audit Service, and the Air Force
            Audit Agency shall, in coordination with the Inspector General of the Department
            of Defense, develop a comprehensive plan for a series of audits to discharge the
            requirements of subsection (a).




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                                  71
Appendix B. Legislative Mandates



           (2) INCORPORATION INTO REQUIRED AUDIT PLAN.- The plan developed
           under paragraph (1) shall be submitted to the Inspector General of the Department
           of Defense for incorporation into the audit plan required by section 842(b)(1) of the
           National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181;
           122 Stat. 234; 10 U.S.C. 2302 note).

           (c) INDEPENDENT CONDUCT OF AUDIT FUNCTIONS.-All audit functions
           performed under this section, including audit planning and coordination, shall be
           performed in an independent manner.

           (d) AVAILABILITY OF RESULTS.-All audit reports resulting from audits under
           this section shall be made available to the Commission on Wartime Contracting in
           Iraq and Afghanistan established pursuant to section 841 of the National Defense
           Authorization Act for Fiscal Year 2008 (122 Stat. 230).

           (e) CONSTRUCTION.-Nothing in this section shall be construed to require any
           agency of the Federal Government to duplicate audit work that an agency of the
           Federal Government has already performed.




FY 2012 Comprehensive Oversight Plan for Southwest Asia
                                                                                                   72
If you need additional information about any of the oversight projects listed, please contact the   The Office of the Special Deputy Inspector General for Southwest Asia prepared this plan. If
respective agency:                                                                                  you have questions or wish to request a copy of the plan, send an e-mail to sdig-swa@dodig.mil
                                                                                                    or phone (703) 699-5383.
Department of Defense Office of Inspector General
(703) 604-8324
http://www.dodig.mil/                                                                                                          Department of Defense Inspector General
                                                                                                                  Office of the Special Deputy Inspector General for Southwest Asia
U.S. Army Audit Agency                                                                                                                  4800 Mark Center Drive

(703) 681-8178 or (571) 926-6653                                                                                                             Room 15G27

http://www.hqda.army.mil/aaaweb/default.htm                                                                                        Alexandria, Virginia 22350-1500


Naval Audit Service                                                                                 The plan is also available on our Web site at http://www.dodig.mil/.
(202) 433-5757
http://www.hq.navy.mil/NavalAudit/

U.S. Air Force Audit Agency
(210) 652-0467 or (240) 612-5138
http://www.afaa.af.mil/

Special Inspector General for Afghanistan Reconstruction
(703) 602-2500
http://www.sigar.mil

Special Inspector General for Iraq Reconstruction
(703) 428-1100
http://www.sigir.mil
                                                                                                      Additional Information
Department of State Office of Inspector General                                                       The Department of Defense Office of the Special Deputy Inspector General for SWA
(703) 284-2690                                                                                        prepared this report. If you have questions, contact sdig-swa@dodig.mil.
http://www.oig.state.gov/
                                                                                                      Suggestions for Oversight Efforts
U.S. Agency for International Development Office of Inspector General                                 To suggest or request oversight efforts for defense programs, contact the Office of the
(202) 712-1020                                                                                        Special Deputy Inspector General for SWA by phone (703) 604-9165 (DSN 664-9165),
http://www.usaid.gov/oig/                                                                             by fax (703) 604-8932, or by mail:

U.S. Government Accountability Office                                                                                        SDIG-SWA
(202) 512-8974                                                                                                               Department of Defense Inspector General
http://www.gao.gov                                                                                                           400 Army Navy Drive (Room 1000)
                                                                                                                             Arlington, VA 22202-4704

For additional copies of this report, please see the inside back cover for details
                                    Participating Agencies


Department of Defense Office of Inspector General
           Special Inspector General for Iraq Reconstruction 

4800 Mark Center Drive
                                      2530 Crystal Drive

Room 15G27
                                                  Arlington, VA 22202 

Alexandria, Virginia 22350-1500

                                                             Department of State and 

U.S. Army Audit Agency
                                      Broadcasting Board of Governors

3101 Park Center Drive
                                      Office of Inspector General

Alexandria, VA 22302-1596 
                                  Room 8100, SA-3

                                                             2201 C Street, NW

Naval Audit Service
                                         Washington, DC 20520-0308 

1006 Beatty Place, SE

Washington Navy Yard Bldg. 219
                              U.S. Agency for International Development

Washington, DC 20374 
                                       Office of Inspector General

                                                             Room 8.09-090, RRB

U.S. Air Force Audit Agency
                                 1300 Pennsylvania Avenue NW

1120 Air Force Pentagon, Suite 4E204 
                       Washington, DC 20523 

Washington, DC 20330-1126 

                                                             U.S. Government Accountability Office

Special Inspector General for Afghanistan Reconstruction 
   441 G Street, NW

2530 Crystal Drive
                                          Washington, DC 20548 

Arlington, VA 22202





                                                                                                                   Fiscal Year 2012 Comprehensive Oversight
                                    Department of Defense Inspector General

                                                                                                                             Plan for Southwest Asia
                                           4800 Mark Center Drive

                                                Room 15G27

                                       Alexandria, Virginia 22350-1500


                                This report is available online at: www.dodig.mil

                                                                                                                                                    October 31, 2011
